<html>
<title> - THE ECONOMIC AND ENVIRONMENTAL BENEFITS OF NEW WATER STORAGE IN THE SAN JOAQUIN VALLEY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 THE ECONOMIC AND ENVIRONMENTAL BENEFITS OF NEW WATER STORAGE IN THE 
                          SAN JOAQUIN VALLEY

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

             Saturday, June 11, 2005, in Fresno, California

                               __________

                           Serial No. 109-19

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-760                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Devin Nunes, California              Vacancy
Cathy McMorris, Washington           Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, June 11, 2005..........................     1

Statement of Members:
    Cardoza, Hon. Dennis A., a Representative in Congress from 
      the State of California....................................     6
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     8
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Carter, Lloyd, Director, Revive the San Joaquin, Clovis, 
      California.................................................    37
        Prepared statement of....................................    40
    Garza, Carmen, Hand Labor Supervisor, Sunview Vineyards of 
      California, Inc., Delano, California.......................    11
        Prepared statement of....................................    12
    Larson, Phil, Vice-Chairman, Fresno County Board of 
      Supervisors, Kerman, California............................    19
        Prepared statement of....................................    21
    Meyers, Marvin, Partner, Meyers Farming, Firebaugh, 
      California.................................................    25
        Prepared statement of....................................    26
    Murray, Hon. Ed, Mayor, City of Lindsay, California..........    23
        Prepared statement of....................................    24
    Orth, David, General Manager, Kings River Conservation 
      District, Fresno, California...............................    27
        Prepared statement of....................................    29
    Prosperi, Denis, Farmer, Madera, California..................    34
        Prepared statement of....................................    36
    Upton, Kole, Chairman, Friant Water Users Authority, 
      Chowchilla, California.....................................    43
        Prepared statement of....................................    45



OVERSIGHT FIELD HEARING ON ``THE ECONOMIC AND ENVIRONMENTAL BENEFITS OF 
             NEW WATER STORAGE IN THE SAN JOAQUIN VALLEY''

                              ----------                              


                        Saturday, June 11, 2005

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                           Fresno, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:05 a.m., at 
Satellite Student Union, California State University - Fresno, 
Hon. George Radanovich (Chairman of the Subcommittee] 
presiding.
    Present: Representatives Radanovich, Napolitano, Cardoza, 
and Costa.
    Mr. Radanovich. Good morning. My name is George Radanovich, 
representing the 19th District in California, and we are 
calling into order the Subcommittee on Water and Power hearing 
to discuss the water needs of the San Joaquin Valley. And I 
want to thank you all for being here.
    Before we begin, I want to introduce a very good friend, 
Pastor G.L. Johnson of The People's Church here for today's 
invocation. G.L., good morning.
    [Invocation in English.]
    Thank you, Pastor.
    And I would also like to recognize Deacon Salvador De La 
Torre of St. John's Cathedral for today's Spanish invocation. 
Deacon--which, by the way, my father went to St. John's when he 
was a little boy, so it is good to have him here. Thank you.
    [Invocation in Spanish.]
    Thank you, Deacon.
    I now recognize the Boy Scout Troop 982 to Present the 
Colors.
    [Presentation of Colors.]
    Thank you.
    I now recognize Second Lieutenant Timothy Skypeck of the 
U.S. Air Force to lead us in the Pledge of Allegiance.
    [Pledge of Allegiance.]
    Thank you, sir.
    Now, aside from being here for this most important hearing, 
you are in for a real treat today, because I have the privilege 
of introducing Mr. Henry Lemay of Fresno to provide a patriotic 
song that serves as a great tone for this hearing.
    Henry is a Korean War veteran, who has received various 
medals and citations from his military service. He sings a 
cappella in a way--it is just wonderful. You will love it. 
Henry, welcome to the hearing, and Henry will be singing God 
Bless America for us.
    Mr. Lemay. What I would like to do is I would like to sing 
this verse one time through, and then once again through and 
ask your participation. Is that all right?
    [Singing followed by applause.]
    Mr. Radanovich. Thank you. Thank you very much. Thank you 
very much, Henry, and sorry I didn't get that last note but I 
sang along right with you on the rest of it.
    [Laughter.]
    I would like to thank everybody for--oh, one more--let us 
see, where is my script? I want to thank everybody for 
participating. Those that have, I would like to present you 
with a flag that has been flown over the Capitol as a token of 
our appreciation. I would appreciate it if you would come 
forward to receive those.
    [Presentation of flags to recipients followed by applause.]
    Before we commence, I would like to introduce and thank Dr. 
John Welty, who is the President, as many of you know, of 
California State University - Fresno. John, would you like to 
make a couple of comments, please?
    Mr. Welty. Thank you, and let me add my welcome to our 
congressional representatives and all witnesses who are here 
today for this very important hearing. It is especially a 
pleasure to welcome you to the Fresno State campus, where 
during the academic year about 22,000 students and over 2,500 
faculty and staff daily engage in activities with each other 
that are designed not only to help prepare young people for 
careers in the future, but also we are engaged in activities in 
which we seek to try to find answers to some of the most 
complicated problems that we face.
    And I think it goes without saying that water and air 
quality are the two major factors that determine our future in 
Central California. And, indeed, as a university, we have 
sought to become involved over the last several years in many 
ways in addressing issues that we face in this region. And 
through the California Water Institute, which has recently been 
established, we hope to provide a place in which people can 
come together to not only share the best research and the best 
science available, but also to begin discussions to look at how 
we can collectively work together to address issues of water.
    The International Center for Water Technology, which has 
recently been established and seeks to bring together an 
industry that is engaged in trying to help us learn how to 
manage this precious resource, is just about to launch some of 
its efforts on the campus that will focus on research, 
training, and also focus on how we can better--or not better, 
but how we can certify products that are so necessary.
    But, fundamentally, I would like to suggest to you today 
that as we begin this hearing we are faced with very 
complicated problems when we look at the issue of water. But 
the fact of the matter is that I think we now understand that 
we have to work together as a region if we are going to solve 
these issues and other issues that we face, and that we 
understand I think that all areas of Central California, and, 
indeed, the State of California are dependent upon each other.
    And the issues that we face, while they are very difficult, 
can be solved if we have people coming together to look at what 
is best for our community, what is best for our region.
    The other key ingredient I think that is going to be 
necessary for us to address this issue is we have to have 
strong leadership. And I think in my 14 years of experience in 
California I can say that we have at the congressional level in 
Central California the leadership that is now possible for us 
to begin to work together to solve some of these problems.
    And I want to thank Congressmen Radanovich and Cardoza and 
Costa, and that other special person that is with us today that 
you will meet in just a few minutes who is from another part of 
California, Congressman Napolitano, who has also I know been a 
great leader in this area, and certainly Congressman Nunes, who 
has participated.
    These people, from my work with them, are deeply concerned 
not only about this issue but are concerned about how we can 
collectively bring people together to solve problems that face 
Central California.
    So thank you so much for being with us today. We deeply 
appreciate the time that you give and the leadership that you 
give. And I would suggest to us that if we can help our 
congressional leadership, as well as our leadership at the 
State Senate and Assembly, begin to look at what are possible 
solutions, that they are willing to lead in the effort to bring 
these solutions about.
    So thank you again for being with us. Thank you for being 
on this campus. And, above all, let us commit today to working 
together to see if we can find a solution to a very, very 
difficult and challenging problem that faces all of us.
    Thanks again.
    [Applause.]

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, John. Thank you for making this 
available to us, this site, and also for your great leadership 
that you provide here at Fresno State for the benefit of the 
entire Valley.
    I am going to go ahead with my opening statement and allow 
other Members up here to give their opening statements. Then we 
will go into the information-gathering part of this hearing and 
we will hear from our panel, esteemed panel that we have before 
us. So let me begin that, and then we will make our way through 
this hearing.
    As we gather here in Fresno, in the heart of the San 
Joaquin Valley, we come to discuss what water truly means for 
California and our region, and how we can shape and secure our 
water supply for our families, the environment, and 
agriculture.
    Today we celebrate the foresight that generations of 
Californians had in creating the Central Valley Water Project 
and the State Water Project, and the roles that they played in 
turning a desert into some of the world's most productive 
farmland. Without Friant Dam and other storage projects in 
California and throughout the West, life as we know it simply 
wouldn't occur. Adequate water stored in these reservoirs is 
the lifeblood of our economy, our cultures, and our traditions.
    For the everyday citizens who casually turn on the water 
faucet, it is easy to forget the vision of our water pioneers. 
Yet for many in the audience here with us today, adequate water 
is oftentimes the first thing on their minds. Faced by scarce 
water supplies and never-ending lawsuits from environmental 
extremists bent on rewriting history for the San Joaquin River, 
many of the farmers and ranchers in this Valley experience 
painful and daily reminders of an uncertain future.
    Meanwhile, all of California continues to grow at a rapid 
pace. The notion of ``building it and they will come'' is no 
longer true in California. They are going to come anyway. Every 
day our population and our economic environmental needs grow, 
and yet a multipurpose Federal dam or reservoir has not been 
built in nearly 30 years.
    As Senator Feinstein often says, it is time to build new 
storage now. Between inevitable drought and fierce competition 
with other large metropolitan centers, if we don't act as a 
region, we will be left with an empty well.
    Today we will demonstrate the beneficial link between 
increased water storage and economic prosperity in the San 
Joaquin Valley. More water storage means ample supplies for our 
increasing population, adequate water for environmental needs, 
and water to sustain the most prosperous agricultural region in 
the nation, if not the world. This leads to more jobs to 
maintain, serve, and promote our agricultural assets.
    We stand at a water crossroads here in the Valley. We must 
continue to push to build new storage and find common regional 
ground. Congress passed a balanced CALFED bill last year to 
move forward on water storage. The San Joaquin Valley 
congressional delegation worked together to secure $4 million 
to fund CALFED studies to determine if we can build new storage 
on the Upper San Joaquin River.
    This new storage could mean more water for farms, city, and 
the environment. This is an important step in salvaging our 
water future. In addition, I am proud that efforts are underway 
by so many forward-minded citizens in our Valley to improve 
storage capacity.
    The hearing today is about finding these water supply 
solutions and taking the firm action steps to secure our 
future. One of those steps will be the San Joaquin Valley 
regional water planning group that I am working on with my 
colleague, Jim Costa.
    This effort, still in its infancy, is a collaboration that 
will focus on a number of issues including water quality, water 
supply, flood control, and environmental restoration. I look 
forward to working with Mr. Costa, my colleagues, Mr. Cardoza, 
and Resources Committee Chairman Pombo on this important Valley 
effort.
    Finally, I welcome my Subcommittee colleague, Ranking 
Member Grace Napolitano. And even though she is from Southern 
California, I am proud to say that she has a pile of raisins 
here ready to eat at this hearing.
    [Laughter followed by applause.]
    I want to thank the California Water Institute and Fresno 
State for allowing us to have this hearing at an ideal 
location. And, finally, I want to thank the witnesses and 
everybody in the audience for dedicating your Saturday morning 
to plan a blueprint for vital water storage to help sustain our 
Valley.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    As we gather here in Fresno, we are here to discuss what water 
truly means for California and how we can shape our water supply for 
the future.
    Today, we celebrate the foresight that generations of Californians 
had in creating the Central Valley Project and the State Water Project 
and the roles they played in turning desert into some of world's most 
productive farmlands. Without Friant Dam and other storage projects in 
California and throughout the West, life as we know it simply wouldn't 
exist. Adequate water stored in these reservoirs is the lifeblood of 
our economy, our cultures and our traditions.
    For the everyday citizen who casually turns the light and the water 
faucet on, it is easy to forget the vision our water pioneers had. Yet, 
for many in the audience here with us today, adequate water is often 
times the first thing on their minds. Faced by scarce water supplies 
and never-ending lawsuits from extreme environmentalists bent upon re-
writing history, many of the farmers and ranchers in the San Joaquin 
Valley experience painful and daily reminders of an uncertain future.
    Meanwhile, all of California continues to grow at a fast pace. The 
notion of ``building it and they will come'' is no longer true in 
California. They will come anyway. Everyday, our population and our 
economic and environmental needs grow, yet, as Senator Feinstein often 
says, a multi-purpose federal dam and reservoir hasn't been built in 30 
years.
    We stand at a water crossroads here in the Valley. The time to act 
is now. Congress passed a balanced CALFED bill last year to help 
reverse our growing water scarcity. The House of Representatives 
recently passed our proposal to fund CALFED studies to determine if we 
can build new storage on the Upper San Joaquin. This new storage could 
mean more water for farms, cities, and fish. This is an important step 
in fixing our water future but it's only the first step. The hearing 
today is about finding these water supply solutions.
    I welcome my Subcommittee colleagues from the Valley, Mr. Costa and 
Mr. Cardoza, and commend them for their leadership on these issues. I 
also want to thank the witnesses and everyone in the audience for 
dedicating the time to discuss our common goals and future.
                                 ______
                                 
    Mr. Radanovich. I now recognize my distinguished Ranking 
Minority Democrat, Grace Napolitano, for your statement. Grace, 
welcome to Fresno.

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Mr. Chair, and it is a pleasure 
to be back in this Valley, second time in a couple years, at a 
hearing that we had in CALFED a couple years ago where members 
that were in the area helped us get CALFED through, and I must 
explain it a little bit.
    As a City Councilwoman, former State Assembly, and now in 
Congress, I understand the issues of water. And I am not--I am 
here to learn and to work with all of the officials. And as the 
President was so rightfully saying, that we need to work 
together. We all have needs. What is good for California, for 
all Californians, is what I am aiming for. But don't forget 
that we in Southern California also need to survive and need to 
be able to have appropriate water supply.
    With the Colorado River, we have already met the 2016 plan. 
We have worked on it, and for those you that don't know the 
2016 plan is cutting the take on the Colorado River that 
Southern California feeds from--a third of the water. But also, 
to understand how we can impart and maybe share technology and 
information, so that we can help each other. We can learn from 
Northern California, and Northern California can learn from 
what Southern California has achieved and how they have done 
it.
    Be sure that I--and I understand that I have worked with a 
couple of my colleagues in the state level, with Jim Costa and 
with Dennis Cardoza, so we have been friends a long time. And 
my good friend Radanovich is an excellent Chairman of the 
Subcommittee, and I look forward to working on a lot of the 
issues. And, again, I will help what is good for California.
    But by the same token, again, don't forget to help Southern 
California. And statements such as I had heard about a year or 
so ago from a legislator--a state legislator--that not one more 
drought for Southern California doesn't help your cause nor 
mine. We are all in it together, and we all need to work 
together to be able to get that funding through and bring the 
technology and assistance to all areas.
    So with that, Mr. Chair, there are a lot of new challenges, 
and I look forward to hearing from the panel, and hopefully 
maybe take another tour later in the year with you to see what 
has been brought up to date. I am very, very, very concerned 
about CALFED or the actual expenditure of CALFED monies that 
has been in the news lately. And I am certain that all of you 
are as concerned as I am, because we want to be sure that every 
cent goes to solving a problem.
    Thank you very much.
    Mr. Radanovich. Thank you, Grace. Appreciate it.
    [Applause.]
    Good to have you here.
    I now recognize my colleague, Mr. Cardoza, for your opening 
statement. Dennis, good morning.

   STATEMENT OF THE HON. DENNIS CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Good morning. Thank you, George. Thank you for 
bringing the Committee back again this year. The work that the 
Committee has done in the past, and continues to do, is 
incredibly important.
    And I want to make a special note as we start out today 
about the colleagues that are here. Mr. Costa--Jim--this 
morning we got him tied up with the Portuguese folks on both 
ends here.
    [Laughter.]
    But I want to also acknowledge Grace Napolitano. She has 
already mentioned that we have worked together for a number of 
years together in the legislature and in Congress, and she has 
always had an interest and a very positive one in the Central 
Valley.
    I also want to take special note of a few of our colleagues 
who aren't here. I note that Senator Feinstein was a tremendous 
leader in getting the CALFED legislation passed in the Senate. 
And we have Tom Bohegian--I don't know if anyone from Senator 
Feinstein's staff is here today, but I also see Tom Bohegian 
from Senator Boxer's office, and she has been incredibly 
helpful, especially to me in my first three years in Congress, 
and I appreciate him being here.
    Also, Congressman Nunes and Chairman Pombo are fabulous to 
work with and have been so welcoming to Jim and I as we have 
come into Congress in the last couple of years.
    It is important to note how the Valley delegation does work 
across party lines. What is important is what is good for the 
Valley, what is good for agriculture, the economy, and what is 
in the best interest of the future of our Valley is our main 
interest. We are here to talk about the Valley's water needs 
and the role that storage plays in meeting those needs.
    Plain and simple, this state needs increased water storage 
facilities. We need them now. We needed them yesterday. It is 
our job as elected officials to meet these state water needs 
and to plan for our future. We cannot do that without expanding 
on our water system. We simply cannot meet our state's future 
needs by taking any one option--from conservation to building 
more facilities--off the table.
    Storage needs to be incorporated into our policies at every 
level, from the Federal appropriations process to state bond 
acts to agency decisionmaking processes. The cornerstone of the 
CALFED framework agreement, the record of decision, and the 
CALFED reauthorization bill is the concept of linkages--the 
notion that the environmental progress would hinge upon water 
supply and water quality improvements, and that progress on 
water supply and water quality would hinge upon environmental 
improvement.
    The water community and many of us in office pushed hard 
for this linkage. The more I learn about the entire water 
system in California the more I am convinced that this linkage, 
specifically the concept involving increased storage, is a 
crucial component, not just for farmers in cities and 
businesses in California but for flood control and for the 
environment as well.
    Increased storage will give us the flexibility we need to 
better manage our water resources in this state. It has been 
neither feast nor famine for us in California. This wet year, 
with rains coming as late as June, and with a snow melt that 
keeps us on a flood alert, confirms that point.
    Today, as I crossed the San Joaquin River coming to this 
hearing, I thought to myself, this is both a blessing and a 
curse. The blessing is that we have a great water year. The 
curse is that everybody is going to think that the water 
problem is solved. It is not.
    Additional water storage facilities would help us better 
manage the system for flood control, environmental needs, and 
for agriculture and municipal and businesses as well. It is 
also the only way we can meet the water supply targets, the 
water quality goals, and the environmental goals under the 
CALFED program.
    We are not here to debate whether you have--whether to have 
these facilities, but what we can do to move the process along 
to the next steps. The four projects--Shasta, Los Vacaras, 
Upper San Joaquin, and Sites Reservoirs--need to progress 
quickly and to be on the same/similar timeline--the idea that 
all projects be linked so that there is incentive to keep 
stakeholders together and supportive of projects outside their 
region.
    We need to reach agreement with state and Federal 
regulatory agencies on streamlined permit processes, so that 
the years of work that went into the screening processes and 
environmental reviews for storage and infrastructure projects 
can be utilized. And so that it is clear that water 
infrastructure projects are an essential part of a balanced 
program.
    We need to do a better job of demonstrating the link 
between storage and our environmental goals, whether it be for 
water quality, the environmental water account, endangered 
species goals, refuse water supplies, diversification of refuse 
water, etcetera.
    It is amazing what the water community can accomplish when 
we all work together. Clearly, there are some differences among 
water users, rankly, particularly in my district, where we have 
the west side, east side, exchange contractors, and delta 
interests all coming together with one elected official.
    And opponents of water development love to seize upon these 
differences. In the end, the water community, however, has more 
similarities than differences. And I look forward to working 
with this Committee and the stakeholders on the next steps. I 
think we are all ready to take the next steps on storage.
    And thank you, Mr. Chairman, for holding this hearing.
    [Applause.]
    Mr. Radanovich. Thank you, Dennis. It is good to have you 
here with us today.
    Also joining us is another colleague, Congressman Jim 
Costa. Jim, welcome to the Subcommittee.

 STATEMENT OF THE HON. JIM COSTA, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Costa. Thank you very much, Chairman Radanovich. And I 
want to commend you as the Chairman of the Subcommittee on 
Water Resources to bring this hearing in the heart of the San 
Joaquin Valley, the center of the State, Fresno. It is fitting 
and appropriate that we have it here at Fresno State, an alumni 
for many of us, our alma mater, Fresno State. Yes, go Dogs. It 
was nice to hear President Welty in his opening comments.
    But truly this university, along with many others, has 
provided leadership with the California Water Institute that 
was created several years ago and we are using as a facilitator 
for efforts that you and I are engaged in, Congressman 
Radanovich, as well as other local efforts, the International 
Water Institute. All of that is important.
    My colleague, Congresswoman Napolitano, who I served with 
in the State legislature, she acknowledged clearly we 
appreciate your leadership in water throughout the State, and 
we appreciate your coming from Southern California this morning 
to participate in our hearing here today, because you, too, 
truly understand the regional connections that exist in 
California's water challenges.
    Congressman Cardoza and I, you know, they sometimes accuse 
us of having a Portuguese law firm here, but these are kind of 
appropriate bookends for this morning. I do appreciate your 
leadership and working together in a bipartisan effort with our 
Valley team, with Congressman Radanovich, Congressman Nunes, 
who is very concerned and active in these issues, and along 
with our Congressional colleagues Pombo and Thomas, really form 
a team that, as Dr. Welty said, is critical to providing the 
Federal leadership necessary to make a difference. Butt we 
can't do it alone. We have to work with partners.
    And as I look in the front row, I see a good friend and 
member of the California State Assembly, Assembly Member Juan 
Arambula, who serves in the appropriate policy committees on 
the State level. He and I talk on a regular basis about the 
efforts to address our current and long-term water needs, and 
we appreciate your participation here today, along with our 
state colleagues who could not be here but obviously have staff 
here and are here in spirit.
    I would like to make three points before we hear our 
witnesses, and I am really looking forward to hearing our 
witnesses, because obviously that is why we are here today. But 
first of all, we in California are dealing with our future, and 
oftentimes we act as if our future was well prepared and 
planned for, and it is not, when it comes to our resource 
issues, our investment in our infrastructure.
    With 36 million people living in California today, 
estimated to have a population growth in the next 25 years, 
that should put us around 50 million people. We are not 
prepared--in my opinion, we are not prepared to provide for the 
infrastructure and the quality of life issues, i.e. water, 
transportation, air quality, to sustain that population growth 
over the course of the next 25 years.
    And that is why, in part, this effort is so critical, this 
hearing is so important, toward really laying on the table what 
our water needs are, not only in California but particularly in 
the Central Valley.
    And I know under your leadership, Chairman Radanovich, we 
are going to work very hard in the 109th Congress to try to 
address not only western needs, the State's needs, but we are 
going to try to bring our region together.
    I think that it is critical, and I tell many of you that 
we--while we act locally regardless of our position, we need to 
think regionally. And in thinking regionally, we need to plan 
long term, and we need to use all of the water management tools 
that are in our water toolbox to address our long-term water 
needs in my opinion.
    Those involve water management tools that include 
conservation, they include groundwater recharge, that include 
surface storage supply, that involve partnerships--public 
partnerships as we have with the Fresno Irrigation District in 
the City of Clovis, our public-private partnerships, as Madera 
is currently pursuing, and the Kings River Conservation 
District is pursuing.
    We need to think out of the box. We need to use all of the 
water tools, as a good farmer would, in our water management 
toolbox. It is that simple. We have made progress. I know 
oftentimes we look and say, ``Gee, we are just fighting 
again.'' But we have made progress.
    We have the quantification settlement agreement in place, 
and they are implementing it, as Congresswoman Napolitano said, 
in the 2016 agreement. CALFED we got authorized last year 
through the hard works of the three members here, but I think 
many of us feel that CALFED needs to be put back on track. The 
transparency and the governance and the accountability are 
essential if CALFED is ultimately going to serve the purposes 
that we intended it to when it was created.
    And, finally, I believe--and many of you heard me tell 
this--that we need to come together, we need to get our own 
water act together as a region, because I believe regions in 
California that come together with their own long-term regional 
plan are going to be way ahead of the game.
    One thing I have learned for certain over the 20-plus years 
I have been active in water issues is that if you ever expected 
Sacramento or Washington, D.C. to solve all your water 
problems, you are sadly mistaken. And I think we have learned 
painfully in recent years that that just isn't going to happen. 
Obviously, Sacramento and Washington, D.C. play a critical role 
working together as we address our long-term water needs.
    But I believe that regions that can come together--and that 
is not easy, because there are a lot of turf issues, as we 
know, regionally. We know that clearly in our area here between 
the east side and the west side, southern Valley and the center 
of the Valley and northern. We know it between our water 
districts.
    But the fact is that regions that can come together and 
overcome those turf battles, those local issues, are going to 
be way ahead of the game in being able to leverage state and 
Federal dollars, which is where we can really facilitate the 
partnerships. And that is what this effort should all be about 
here today is facilitating partnerships.
    So I look forward to listening to the testimony as we 
explore the water management tools that are in our water 
toolbox, as we look at what are the, you know, barriers that 
exist in overcoming agreements and reaching consensus within 
our own region, and making a needs assessment.
    You know, any business person, any family, I mean, you 
can't plan long term unless you know what your needs are. I 
mean, what your needs are for your business, what your needs 
are for your county, what your needs are for your family.
    And so I think as a part of this regional water plan that 
we are trying to put together over the next 18 months we have 
to quantify what our current needs are and what they will be in 
the next 25 years as it relates to our water supply, our water 
quality, our environmental restoration efforts, as well as our 
flood control needs. And therein lies the challenge.
    Thank you all for your testimony in advance. If this work 
were easy, I can assure you it would have been done a long time 
ago. Let us be reminded of a sage writer and philosopher of the 
19th century that used to write in George Radanovich's hometown 
paper, The Mariposa Gazette, when he spent a bit of time out 
here in the 19th century.
    That fellow, of course, you know was named Mark Twain. But 
he made an observation that was true then, as it is true today, 
and we have to put it beside us--when he observed, in the West, 
whiskey was made for drinking and water was made for fighting. 
Let us get past the fights. Let us get working toward some 
solutions, and let us get moving.
    Thank you very much, Mr. Chairman.
    Mr. Radanovich. Thank you, Jim. Thanks for being here.
    [Applause.]
    Now I would like to introduce our panel of excellent 
witnesses. We have a great, I think, representative panel here 
today. I would like to introduce everybody, and then we will 
start with five-minute testimonies from each one of them. After 
that, we will open up the panel for questions from us here on 
the dais, all for the public record.
    Please join me in welcoming today Ms. Carmen Garza of 
Sunview Vineyards in Delano, California; Mr. Phil Larson, 
Supervisor of Fresno County from Kerman, California; Mr. Ed 
Murray, Mayor of the City of Lindsay, California; Mr. Marvin 
Meyers, Meyers Farm Family Trust in Firebaugh; Mr. David Orth, 
General Manager of the Kings River Conservation District in 
Fresno; Mr. Denis Prosperi, a farmer in Madera County; Mr. 
Lloyd Carter, Director of Revive the San Joaquin, from Clovis, 
California; and Mr. Kole Upton, who is the Chairman of the 
Friant Water Users Authority, joining us from Chowchilla.
    Welcome to this Committee, and thank you very much for 
being here.
    As I mentioned, we would like each member to give oral 
testimony for about five minutes. Since we have such a big 
panel and limited time, we would like you to limit your remarks 
to five minutes. Please know that your entire written testimony 
is included for the record, so feel free to be extemporaneous 
if you would like to in your comments. After that, of course, 
we would like to make you available for questions from this 
panel.
    The box here will tell you how long you can speak. The 
lights are just like traffic lights. Green means go, yellow 
means speed up, and red means stop.
    [Laughter.]
    So that will be your guideline on your testimony.
    And I think you may begin. Ms. Garza, welcome to the 
Subcommittee. And if you would like to begin to testify, we 
would sure appreciate it.

         STATEMENT OF CARMEN GARZA, SUNVIEW VINEYARDS, 
                       DELANO, CALIFORNIA

    Ms. Garza. Thank you for giving me the opportunity. I will 
start in Spanish, and then I will read English.
    Mr. Radanovich. That would be just fine.
    Ms. Garza. [Speaks in Spanish.]
    OK. At this point, I will read in English. My name is 
Carmen Garza. I have lived and worked in the San Joaquin Valley 
for almost 50 years. I have lived through the drought we had in 
the '90s, so I am very happy to hear that somebody is thinking 
about enhancing our nation's water storage capacity.
    As farm workers, sometimes we lose days of work because of 
rain, but there is great comfort in knowing that we will have 
water in the future to continue to maintain the farms, and, 
therefore, our jobs. I am a farm worker, and keeping my job is 
extremely important.
    But my job is only one small piece of the circle which 
starts with a reliable flow of water to the farms in the San 
Joaquin Valley. Yes, I need my job to continue to provide a 
home and food for my family, but so do many other families who 
have jobs thanks to the existence of farms.
    I represent employees working in the grape industry. There 
are several thousand family businesses farming raisins, wine 
grapes, and fresh grapes in that area, serviced by the Madera 
Canal and the Friant-Kern Canal. We are a significant 
contributor to the agricultural industry that exceeds $12.5 
billion of farm grape proceeds. I am talking about grapes from 
Madera, Fresno, Tulare, and Kern Counties. I am talking about 
milk, almonds, vegetables, oranges, peaches, plums, nectarines, 
and all of the grain and hay crops we grow to support the 
animal industry.
    These crops have a huge value and keep our economy and jobs 
alive. Also, please remain that grapes, stone fruit, nuts, and 
citrus are all permanent plantings. Therefore, a constant, 
reliable, long-term source of water is critical to their 
survival.
    Please recognize how important our current water supply 
system is to our economy and livelihood. And that as we grow in 
population, future generations will benefit by developing our 
water storage resources.
    Thank you for your time and inviting me to speak on behalf 
of employees in the grape industry. I have included statistics 
for the Congressional Record on the agricultural production 
value of the Madera, Fresno, Tulare, and Kern Counties for your 
review. These four counties are served extensively by the 
valuable Friant service area of the Central Valley Project.
    Thank you.
    [The prepared statement of Ms. Garza follows:]

           Statement of Carmen Garza, Hand Labor Supervisor, 
                 Sunview Vineyards of California, Inc.

    My name is Carmen Garza. I have lived and worked in the San Joaquin 
Valley for almost 50 years. I have lived through the drought we had in 
the 90's, so I am very happy to hear that somebody is thinking about 
enhancing our nation's water storage capacity. As farmworkers, 
sometimes we lose days of work because of rain, but there is great 
comfort in knowing that we will have water in the future to continue to 
maintain the farms, and therefore, our jobs.
    I am a farmworker, and keeping my job is extremely important, but 
my job is only one small piece of the circle which starts with a 
reliable flow of water to the farms in the San Joaquin Valley. Yes, I 
need my job to continue to provide a home and food for my family, but 
so do many other families who have jobs thanks to the existence of 
farms.
    I represent employees working in the grape industry. There are 
several thousand family businesses farming raisins, wine grapes and 
fresh grapes in the area serviced by the Madera Canal and the Friant-
Kern Canal. We are a significant contributor to the agricultural 
industry that exceeds 12.5 billion dollars of farmgate proceeds.
    I am talking about grapes from Madera, Fresno, Tulare and Kern 
Counties. I am talking about milk, almonds, vegetables, oranges, 
peaches, plums and nectarines and all the grain and hay crops we grow 
to support the animal industry.
    These crops have a huge value and keep our economy and jobs alive. 
Also, please remember that grapes, stone fruits, nuts, and citrus are 
all permanent plantings; therefore, a constant, reliable, long-term 
source of water is critical to their survival. Please recognize how 
important our current water supply system is to our economy and 
livelihood and that as we grow in population, future generations will 
benefit by developing our water storage resources.
    Thank you for your time and inviting me to speak on behalf of 
employees in the grape industry. I have included statistics, for the 
Congressional record, on the Agricultural Production Value of the 
Madera, Fresno, Tulare and Kern counties for your review. These four 
counties are served extensively by the valuable Friant Service Area of 
the Central Valley Project.

[GRAPHIC] [TIFF OMITTED] T1760.001

[GRAPHIC] [TIFF OMITTED] T1760.002

[GRAPHIC] [TIFF OMITTED] T1760.003

[GRAPHIC] [TIFF OMITTED] T1760.004

[GRAPHIC] [TIFF OMITTED] T1760.005

[GRAPHIC] [TIFF OMITTED] T1760.006

[GRAPHIC] [TIFF OMITTED] T1760.007

                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Garza. I appreciate your 
testimony.
    [Applause.]
    I now recognize Supervisor Phil Larson from Fresno County. 
Phil, welcome to the Subcommittee, and you may begin to 
testify.

             STATEMENT OF PHIL LARSON, SUPERVISOR, 
               FRESNO COUNTY, KERMAN, CALIFORNIA

    Mr. Larson. Thank you, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to appear before 
you today and to share my perspective on the need for new water 
storage in the San Joaquin Valley.
    My name is Phil Larson, and I represent District 1 on the 
Fresno County Board of Supervisors. My district includes the 
western portion of the City of Fresno and the west side 
agricultural region of our county, all the way to the San 
Benito County line.
    As a farmer and a businessman, I study water issues in my 
county because they are vital to my economic survival. As a 
past Farm Bureau president, I advocate for additional water 
storage for our region because our organization saw the need to 
establish safe, clean, and reliable water supplies for our 
industry, our community in the future.
    As Fresno County Supervisor, I continue to fight for safe 
and secure water supplies in our region, because I know without 
additional water supplies the social, cultural, and economic 
impacts to our region could be devastating.
    It is my goal today to provide you with a brief synopsis of 
the importance of water resources to Fresno County, what we 
have done to date to protect our viable water resources, why we 
can work with each of you, and how we can work together as a 
region to establish additional storage in the Central Valley.
    Fresno County represents a unique combination of an 
agricultural-based rural economy with a large urban population 
center. Fresno County's agriculture is the major industry in 
the county, and it is a driving economic force. We are also 
home to the sixth largest city in California, and the largest 
inland city in the state.
    Our gross agriculture production value of 2004 exceeded the 
$4 billion mark for the second consecutive year, and Fresno 
County regained our long-standing title as the number one 
agricultural county in the nation. We have experienced 
unprecedented growth, an explosion of the population both 
home--both population and home construction. 2005 population 
estimates for the City of Fresno are 465,000, and a 
metropolitan area population of more than one million.
    Our 15 incorporated cities are also experiencing huge 
growth, and economic indicators illustrate the trend will 
continue. With a normal average rainfall per year of 10.6 
inches, Fresno County must rely upon both surface and 
groundwater supplies to meet all the water demands. The 
majority of our farmers, and, therefore, our entire 
agricultural-based economy rely on surface water.
    Application of surface water for irrigation purposes, 
combined with seepage from rivers, streams, and canals used to 
deliver surface water is the single largest direct source of 
groundwater recharge in the county. Over 94 percent of our 
residents rely directly on groundwater to meet their domestic 
needs. The water is supplied through individual wells or 
through municipal community systems.
    Groundwater is also used to supplement the surface water 
supplies, especially during times of drought. Fresno County has 
more water storage capacity in the aquifers underlying the 
central part of the county than the combined storage of all the 
reservoirs in the county.
    However, these aquifers are being overdrafted, and all 
local surface water supplies are fully appropriated. This 
ongoing shortage is compounded by the unprecedented growth we 
have experienced in the past years. Fresno County's approach 
has been to protect our water supplies through enactment of 
policies that encourage conservation and protection of our 
water quality.
    We have also sought to enhance our local water supplies. 
However, the only available potential new water currently flows 
down the rivers and out into the ocean in high-yield years such 
as we have experienced this year.
    In high-yield years, our existing water storage system is 
overwhelmed. To maximize the capture of these flood flows, we 
desperately need additional storage. Fresno County's policies 
continue to support additional water storage for both surface 
and underground as long as it has undergone a critical and 
transparent evaluation and been proven to be economically and 
environmentally feasible.
    In support of the enhanced water storage, the Fresno County 
Board of Supervisors approved a resolution on December 14, 
2004, supporting a study of Temperance Flat Surface Water 
Storage Project. Fresno County, like many of its neighbors, has 
found it necessary to be vigilant in protecting our water 
source by limiting out-of-county water transfers.
    To accomplish this, Fresno County enacted a groundwater 
ordinance in 2000 to prevent the potentially devastating 
permanent transfers of water out of our county and out of the 
region. We are working with all of our water agencies by 
conducting studies on our current water inventory and 
evaluating both our current and projected needs.
    Fresno County has also joined cooperative coalitions with 
neighboring counties, the Valley Water Alliance, the San 
Joaquin Valley Water Coalition, for a regional solution. Water 
equals economic stability growth in Fresno County, and I dare 
say the entire San Joaquin Valley. If we are to grow and 
prosper, we are to continue to be the world's food basket, we 
must maximize our water resources.
    Thank you for the opportunity to address you today, and I 
urge you to continue your role of examining opportunities for 
new water storage in the San Joaquin Valley. On behalf of 
Fresno County, I look forward with you and the members of this 
Subcommittee as we pursue our mission in providing 
opportunities throughout the region.
    Your bipartisan coalition sets an outstanding example and 
how we can provide a better future for our children and our 
children's children.
    Thank you.
    [The prepared statement of Mr. Larson follows:]

               Statement of Phil Larson, Vice-Chairman, 
                   Fresno County Board of Supervisors

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to share my perspective on the 
need for new water storage in the San Joaquin Valley.
    My name is Phil Larson and I represent District One on the Fresno 
County Board of Supervisors. My district includes the western portion 
of the City of Fresno and the westside agricultural region of our 
county all the way to the San Benito County line. As a farmer and 
businessman, I study water issues in my county because they are vital 
to my economic survival. As a past farm bureau president, I advocated 
for additional water storage for our region because our organization 
saw the need to establish safe, clean and reliable water supplies for 
our industry and community in the future. As a Fresno County 
Supervisor, I continue to fight for safe and secure water supplies in 
our region because I know without additional water supplies the social, 
cultural and economic impacts to our region could be devastating.
    It is my goal today to provide you with a brief synopsis of the 
importance of water resources to Fresno County, what we have done to 
date to protect our viable water resources, why we can work with each 
of you, and how we can work together as a region to establish 
additional storage in the Central Valley.
    Fresno County represents a unique combination of an agricultural 
based rural economy with a large urban population center. Fresno 
County's agriculture is the major industry in the county and is its 
driving economic force. We are also home to the sixth largest city in 
California and the largest inland city in the state.
    Our gross agriculture production value in 2004 exceeded the four 
billion-dollar mark for the second consecutive year and Fresno County 
regained our long standing title as the number one Agricultural County 
in the Nation.
    We have experienced unprecedented growth and an explosion of both 
population and home construction. 2005 population estimates for the 
City of Fresno are 465,000 and a metropolitan area population of more 
than 1 million. Our fifteen incorporated cities are also experiencing 
huge growth and economic indicators illustrate the trend will continue.
    With a normal average rainfall per year of 10.6 inches, Fresno 
County must rely upon both surface and groundwater supplies to meet all 
water demands. The majority of our farmers and therefore our entire 
agricultural based economy rely on surface water. Application of 
surface water for irrigation purposes combined with seepage from 
rivers, streams, and canals used to deliver surface water is the single 
largest direct source of groundwater recharge in the County.
    Over 94% of our residents rely directly on groundwater to meet 
their domestic needs. The water is supplied through individual wells, 
or through municipal/community systems. Groundwater is also used to 
supplement surface water supplies, especially during times of drought.
    Fresno County has more water storage capacity in the aquifers 
underlying the central part of the County than the combined storage of 
all the reservoirs in the county. However, these aquifers are being 
over-drafted and all local surface water supplies are fully 
appropriated. This ongoing shortage is compounded by the unprecedented 
growth we have experienced in the past years.
    Fresno County's approach has been to protect our water supplies 
through enactment of policies that encourage conservation and 
protection of water quality. We have also sought to enhance our local 
water supplies. However, the only available potential new water 
currently flows down the rivers and out into the ocean in high yield 
years such as we have experienced this year.
    In high yield years, our existing water storage system is 
overwhelmed. To maximize the capture of these flood flows, we 
desperately need additional storage. Fresno County policies continue to 
support additional water storage for both surface and underground as 
long as it has undergone a critical and transparent evaluation and been 
proven to be economically and environmentally feasible. In support of 
enhanced water storage, the Fresno County Board of Supervisors approved 
a Resolution on December 14, 2004 supporting the study of the 
Temperance Flat Surface Water Storage Project (attachment A).
    Fresno County, like many of its neighbors, has found it necessary 
to be vigilant in protecting our water source by limiting out-of-county 
water transfers. To accomplish this, Fresno County enacted a 
groundwater ordinance in 2000 (attachment B) to prevent the potentially 
devastating permanent transfer of water out of our county and out of 
the region. We are working with all of our water agencies by conducting 
studies on our current water inventory and evaluating both our current 
and projected needs. Fresno County has also joined cooperative 
coalitions with neighboring counties through the Valley Water Alliance 
and the San Joaquin Valley Water Coalition to work for regional 
solutions.
    Water equals economic stability and growth in Fresno County and I 
dare say, to the entire San Joaquin Valley. If we are to grow and 
prosper and if we are to continue to be the world's food basket, we 
must maximize our water resources. We are uniquely sited in one of the 
world's few perfect Mediterranean climates. We can grow everything 
here; all we need is the ability to ensure our water supply by 
capturing and storing the water from our high Sierra resource.
    Thank you for the opportunity to address you today and I urge you 
to continue your role of examining opportunities for new water storage 
in the San Joaquin Valley. On behalf of Fresno County, I look forward 
to working with you and the members of this Subcommittee as we pursue 
our mission of providing economic opportunities throughout the region. 
I would also like to commend the Central Valley Congressional caucus 
for working together on issues of importance to our valley--your 
bipartisan coalition sets an outstanding example on how we can provide 
a better future for our children and our children's children.
    Again, thank you. I would be honored to accept questions from you 
at this time or anytime for that manner. My door is always open to each 
of you as we continue to pursue a viable solution to our water supply 
issues.
    NOTE: Attachments to Mr. Larson's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Larson. Appreciate your 
testimony.
    [Applause.]
    We now recognize the Mayor of Lindsay, Mr. Ed Murray, for 
your testimony. Welcome to the Subcommittee.

                STATEMENT OF ED MURRAY, MAYOR, 
                  CITY OF LINDSAY, CALIFORNIA

    Mr. Murray. Thank you. Good morning. My name is Ed Murray. 
As said, I am the Mayor of City of Lindsay. Lindsay, for you 
that don't know, is in Tulare County on the east side adjacent 
to the foothills. Lindsay is a farm-based community. Our 
economy is based on the farm jobs. Our population is 10,700 
people, of which 82 percent is Hispanic. We have about 4,000 
people employed; 2,200 of those jobs are employed through 
agricultural-related fields.
    In the winter of 1990-1991, as most of you are aware, our 
area was devastated by a major freeze. Then we had our two 
largest employers shut down, and the city's unemployment rate 
soared to 67 percent. Our crime rate tripled during that time 
period.
    We had a mock funeral on our part to bury the past, 
including frozen oranges. Since that time, Lindsay has had a 
rebirth. Lindsay has spent $5 million on a sewage treatment 
plant that will sustain capacity until the year 2025.
    We have installed a four million gallon water storage tank 
to better serve our water needs. Most of our underground water 
lines have been replaced, and our city has passed a tax to 
repair or replace the roads, the streets in our community, on a 
10-year rotational basis. This was passed by the citizens of 
the community.
    In the spring of 2004 we opened a plaza in Mercado where 
every Friday night they have a farmer's market street fair 
attracting between 4,000 and 5,000 people. We are now in the 
process of building a new library, a sports court in the area 
in the center of town, infill housing in the downtown area, and 
redesigning our streets and sidewalks in our shopping area.
    About six years ago, our hospital closed down. They began 
the process of building a $50 million wellness center. The City 
of Lindsay has a contract with the Bureau of Reclamation to 
help supply our water needs. This contract is for 2,500 acre-
feet of water per year. Last year the city's total usage was 
2,737 feet.
    From these figures, you can see how important the San 
Joaquin River is to the City of Lindsay. We have two active 
wells and one standby well. Our main well is three miles 
outside of the city. In the past three years, we have drilled 
six test wells. They were of no use, because of the quantity or 
quality of water that they produced.
    I do not believe, by any means, the water supply would ever 
be shut off to the city. But if our main industry--
agriculture--lost any portion of its water supply it could have 
a devastating effect on our community. We need to ensure a 
steady water supply and consideration given to economic and 
social impacts on people that have made our area a great place 
to live and raise a family.
    In the last few months, the City Council has approved 
development of over 560 new homes coming into our area. We are 
looking for the future to maintain that water supply to support 
the quality of life we would like to have. Please help us save 
our water, so we can enjoy the quality of life.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Murray follows:]

             Statement of The Honorable Ed Murray. Mayor, 
                      City of Lindsay, California

    Good morning. My name is Ed Murray. I am the Mayor of the City of 
Lindsay. Lindsay is in Tulare County on the east side adjacent to the 
foothills. Lindsay has a farm-based economy. Our population is 10,700 
citizens of which about 82% are Hispanic. We have about 4,000 people 
employed, 2200 of those jobs are agriculture related.
    In the winter of 1990-91, our area was devastated by a major 
freeze, then we had our two largest employers shut down. The city's 
unemployment rate soared to 67%. Our crime rate tripled. We had a mock 
funeral in our city park to bury the past, including frozen oranges. 
Since that time, Lindsay has been on a rebirth. Lindsay has spent 5 
million dollars on a sewage treatment plant with capacity until 2025, 
and we installed a 4 million gallon water storage tank to better serve 
our water need. Most all our underground water mains have been 
replaced. Our city passed a tax to repair or replace every street in 
our city on a 10 year rotational basis.
    In the spring of 2004, we opened a plaza and Mercado where every 
Friday night we have a Farmers Market-Street Fair attracting between 
four and five thousand people. We are in the process of building a new 
library, a sports court in the center of town, infill housing in the 
downtown area, and redesigning our streets and sidewalks in our 
shopping area.
    About six years ago, our hospital closed. We have begun the process 
of building a 13 million dollar wellness center.
    The City of Lindsay has a contract with the Bureau of Reclamation 
to help supply our water needs. The contract is for 2,500 acre feet of 
water per year. Last year, the city's total usage was 2,737 acre feet. 
From these figures you can see how important the San Joaquin River is 
to the City of Lindsay. We have two active wells and 1 standby. Our 
main well is 3 miles outside the city. In the past few years, we have 
drilled 6 test wells. They were of no use because of quantity or 
quality of water.
    I do not believe the water supply would ever be shut off to the 
city, but if our main industry lost any portion of its water supply it 
could have a devastating effect on our community. We need to insure a 
steady water supply with consideration given to the economic and social 
impact on the people who have made our area a great place to live and 
raise a family. Please help us save our water so that we can enjoy a 
good quality of life.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Meyers.
    Next is Mr. Dave Orth, Kings River Water Authority. Oh, 
excuse me, Mr. Meyers.
    Mr. Meyers. You can skip over me.
    Mr. Radanovich. Skipped right over you.
    [Laughter.]
    Welcome, Marvin, to the Subcommittee representing Meyers 
Family Farm Trust. And you may begin your testimony. Thank you.

     STATEMENT OF MARVIN MEYERS, MEYERS FARM FAMILY TRUST, 
                     FIREBAUGH, CALIFORNIA

    Mr. Meyers. Thank you for seeing that I was here.
    [Laughter.]
    Mr. Chairman and members of the Subcommittee, thanks for 
giving me a chance to speak about a project that is a positive 
thing addressing our shortages in water.
    I am Marvin Meyers, a partner with my family in the farming 
venture on the west side of Fresno County, and also the 
President of San Luis Water District, which is a district on 
the west side of Fresno and Merced Counties, and a Director of 
the San Luis Delta-Mendota Water Authority, and a member of the 
State Board of Food and Ag, and so on and so on. Also, I have 
participated in the Governor's Drought Preparedness Plan in 
2000.
    I am going to focus my brief statements on a water bank. 
The Meyers farm water banking project was created to store 
surplus water supplies available in wet years for later 
extraction from underground storage during dry years. The 
project provides a supplemental water supply, so that 
agricultural operations can continue during drought periods 
when water becomes scarce and prohibitively expensive.
    A sustainable water supply is essential to the Meyers 
Farming, because the majority of its lands in San Luis Water 
District are planted to permanent crops, primarily almonds, 
that require irrigation every year. In addition to direct 
agricultural benefits, the bank plans to achieve several 
economic and environmental objectives. Some environmental 
benefits of the project are already apparent, since water 
banking activities began in 2002.
    Approximately 11,000 acre-feet of water have been pumped 
from the Mendota pool and infiltrated into the shallow aquifer 
for storage in an area where groundwater levels have been 
depressed due to heavy pumping during drought periods.
    Meyers Farming has pledged to leave 5 percent of the stored 
water in the aquifer in perpetuity. The project will raise the 
level of the water table, reduce the potential for overdraft, 
and improve groundwater quality. The recharge funds also 
provide habitat for water fowl and other wildlife. Supplemental 
water pump from the bank will provide continued economic and 
employment security during dry years due to increased 
sustainability of agricultural operations.
    A critical economic problem facing San Joaquin Valley 
farmers is that when extreme water shortages occur water costs 
escalate and many farmers are forced to fallow large areas of 
land. By extracting stored water as needed from the bank, 
Meyers Farming can ensure continued agricultural operations and 
associated benefits to the local economy. The bank will allow 
Meyers Farming to continue to support local businesses and its 
employees to continue to support their families even during 
drought years.
    The bank project also includes plans to create educational 
opportunities focused on the beneficial use of water for 
agriculture and wildlife habitat. A key goal is to demonstrate 
how responsible agricultural practices and sound water 
management can coexist and improve conditions for local 
wildlife. Educational outreach programs at the bank are being 
coordinated by Fresno County School District and Fresno State 
University.
    Meyers Farming is practicing sound water management by 
storing water, so that agricultural operations can be sustained 
during future water-short years. With the operations and 
support--cooperation and support of the U.S. Bureau of 
Reclamation, and other agencies, the San Luis Water District 
and Spreckels Sugar Company where the bank is located, Meyers 
Farming has instituted a program that promotes conservation, 
efficient water use, groundwater recharge, wildlife habitat, 
educational outreach, and groundwater quality improvement. This 
program is unique in that all the funds were generated 
privately; no public funds were used in this project's creation 
or continued operation.
    My purpose in presenting this project to the Subcommittee 
is to demonstrate water storage, whether surface or 
groundwater, can be accomplished. The cooperation of Federal, 
the Bureau of Reclamation mainly, and other agencies enable 
this project to become a reality.
    During our feasibility work, no one was left out. It is 
absolutely insane to spend millions of dollars in repetitive 
studies and no storage facilities have been constructed. To let 
an abundant year of moisture such as this go by is evidence of 
how little we have progressed capturing water for storage in 
wet years for use in dry years.
    With ever-increasing demand for our limited surface and 
groundwater, this Committee must press for prompt, positive 
action. The next multi-year drought will be too late.
    Thank you.
    [Applause.]
    [The prepared statement of Mr. Meyers follows:]

   Statement of Marvin Meyers, Meyers Farming, Firebaugh, California

    The Meyers Farm Water Banking project (Bank) was created to store 
surplus surface water supplies available during wet years for later 
extraction from underground storage during dry years. The project 
provides a supplemental water supply so that agricultural operations 
can continue during drought periods when water becomes scarce and 
prohibitively expensive. A sustainable water supply is essential to 
Meyers Farming because the majority of its lands in San Luis Water 
District are planted to permanent crops (primarily almonds) that 
require irrigation every year.
    In addition to direct agricultural benefits, the Bank plans to 
achieve several economic and environmental objectives. Some 
environmental benefits of the project are already apparent. Since 
water-banking activities began in 2002, approximately 11,000 acre-feet 
of water have been pumped from the Mendota Pool and infiltrated to the 
shallow aquifer for storage in an area where groundwater levels had 
been depressed due to heavy pumping during drought periods. Meyers 
Farming has pledged to leave five percent of the stored water in the 
aquifer in perpetuity. The project will raise the level of the water 
table, reduce the potential for overdraft, and improve groundwater 
quality. The recharge ponds also provide habitat for waterfowl and 
other wildlife.
    Supplemental water pumped from the Bank will provide continued 
economic and employment security during dry years due to increased 
sustainability of agricultural operations. A critical economic problem 
facing San Joaquin Valley farmers is that when extreme water shortages 
occur, water costs escalate and many farmers are forced to fallow large 
areas of land. By extracting stored water as needed from the Bank, 
Meyers Farming can ensure continued agricultural operations and 
associated benefits to the local economy. The Bank will allow Meyers 
Farming to continue to support local businesses and its employees to 
continue to support their families even during drought years.
    The Bank project also includes plans to create educational 
opportunities focused on the beneficial use of water for agriculture 
and wildlife habitat. A key goal is to demonstrate how responsible 
agricultural practices and sound water management can coexist and 
improve conditions for local wildlife. Educational outreach programs at 
the Bank are being coordinated by the Fresno County School District and 
Fresno State University.
    Meyers Farming is practicing sound water management by storing 
water so that agricultural operations can be sustained during future 
water-short years. With the cooperation and support of the U.S. Bureau 
of Reclamation, San Luis Water District, and Spreckels Sugar Co., 
Meyers Farming has instituted a program that promotes conservation, 
efficient water use, groundwater recharge, wildlife habitat, 
educational outreach, and groundwater quality improvement. This program 
is unique in that all funds were generated privately; no public funds 
were used in the project's creation or continued operation.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Meyers. Appreciate your 
valuable testimony. Thanks for being here today.
    Next is Mr. David Orth, who is with the Kings River 
Conservation District. Dave, welcome to the Subcommittee. You 
may begin.

     STATEMENT OF DAVID ORTH, GENERAL MANAGER, KINGS RIVER 
           CONSERVATION DISTRICT, FRESNO, CALIFORNIA

    Mr. Orth. Thank you, Chairman Radanovich, and members of 
the Subcommittee. My name is David Orth. I am the General 
Manager of the Kings River Conservation District, and I thank 
you for the opportunity to highlight the importance of storage 
to this region, and I would like to discuss some exciting 
developments in the Kings River service area in the area of 
water resource planning.
    The Kings River is the other river that serves the greater 
Fresno area. We have an average annual runoff similar to the 
San Joaquin River--1.7 million acre-foot per year. We are 
experiencing unique wet conditions this year, like many areas 
of the State, and unfortunately are losing flood flows that 
could be beneficially used if we could have additional storage 
in the region.
    The Kings River service area totals 1.2 million acres. It 
serves agricultural, business, and residential communities, and 
portions of the three top-producing ag counties in the nation--
that being Fresno, Kings, and Tulare Counties. Our main storage 
feature is the Pine Flat Dam, which is a Federal Army Corps of 
Engineers facility to which we have attached a hydrogeneration 
facility. We have a million acre-foot of storage there, 
providing critical supplies, flood control, and hydrogeneration 
for the region.
    Nearly a million people live in the Kings River service 
area. Over three dozen cities, towns, and villages depend on 
groundwater conjunctively used and obtained from Kings River 
surface supplies to meet their municipal and industrial water 
needs. Most recently, the Cities of Fresno and Clovis have now 
become served in part with Kings River surface water.
    The population of the area is rapidly growing. Projected 
growth rates in excess of 20 percent for the 10-year period 
between 2000 and 2010 creates substantial pressure on our water 
and power resource planning. Water storage has long been a part 
of resource planning in the Kings River service area.
    We began constructing groundwater recharge basins back in 
the 1930s, in recognition that there were periods where excess 
flows or flows in excess of irrigation could be captured and 
placed back into the groundwater basin. That effort has 
expanded in numerous programs in water storage recharge and 
quality involving now 37 local agencies within the Kings River 
service area.
    We have over 5,000 acres of recharge ponds and flood 
control basins, with capacity of recharging more than 100,000 
acre-foot of water per year. Several thousand miles of unlined 
canals also have direct recharge benefits.
    The Consolidated Irrigation District, who is probably the 
king of recharge in our region, began their first percolation 
basin in 1932, and today are operating at full capacity to take 
every drop of water they possibly can in this extremely wet 
period. The Cities of Fresno and Clovis, the Fresno 
metropolitan flood control district, and the Fresno Irrigation 
District are involved in cooperative implementation of surface 
and groundwater management.
    And the Kings County Water District and the Hanford-Lamore 
service area have 1,600 acres of groundwater recharge 
facilities and are now developing a new banking project that 
will yet again take advantage of excess flows.
    Most recently, the project that Mr. Costa referred to, the 
relationship between Fresno Irrigation District and the City of 
Clovis, has resulted in a 240-acre Waldron Pond banking 
facility--an exchange that will result in some 10,000 acre-feet 
of new water supply for the region. Building on these past 
successes to address surface and groundwater storage and 
address water quality and environmental issues, the agencies 
within our region have begun to recognize the power of regional 
planning and coordination.
    There are a variety of cooperative efforts. Six are 
actually highlighted in my written testimony that are 
developing to address water supply, water quality, and 
environmental improvements. I would like to highlight two very 
quickly.
    The Upper Kings River Water Basin Forum is a multi-
stakeholder group involving representatives of local districts, 
cities, counties, and other interest groups. The forum is 
developing to develop a regional water resources management 
plan and has some successes to date in generating some state 
funding to construct additional recharge and conveyance 
facilities.
    Thanks to the efforts of Mr. Costa, then a State Senator, 
to ensure to Prop 13 money was equitably distributed into the 
San Joaquin Valley, we were able to bring $7.3 million into the 
region to construct the Waldron Pond, to construct recharge 
facilities in the Alta Irrigation District and in the City of 
Dinuba, and to support to feasibility studies by my district to 
continue to explore areas to recharge.
    There are 10 cities, 3 counties, multiple resource 
agencies, water districts, and environmental interests involved 
in the forum.
    Quickly, the second program would be the Kings River 
Fishery Management Program, which was an effort launched in 
1999 to develop a sustainable fishery below the Pine Flat 
Reservoir. This is a program that has evolved into 
participation from the 28 members of the Kings River Water 
Association who have contributed water supply, water through 
storage and flows, as well as funding to address factors 
affecting fishery and habitat issues in the Kings River.
    In conclusion, the development of storage in the Kings 
River has obviously provided a multitude of benefits--water for 
homes, farms, and industries, recreation, flood control, 
hydropower, and replenishment of our underground water storage. 
Our emphasis of late has been on groundwater expansion, and it 
remains to be seen if groundwater storage on its own can meet 
all of our needs.
    Groundwater storage comes with limits and constraints, 
conveyance, slow recharge rates, and the high cost of energy to 
extract banked and recharged groundwater are challenging 
issues. There is no question that storage provides the 
reliability of water supply that is the key to stabilizing our 
groundwater basins, maintaining high water quality, and 
providing environmental enhancement.
    Undoubtedly, additional surface and subsurface water 
storage would be of a benefit to help us regulate the 
tremendous variability in water flows.
    Again, I thank you for the opportunity, and our district 
stands ready to work with members of the Congress and your 
Committee in advancing that storage.
    Thank you.
    [The prepared statement of Mr. Orth follows:]

               Statement of David Orth, General Manager, 
                   Kings River Conservation District

    Chairman Radanovich and members of the Subcommittee, my name is 
David Orth. I am the General Manager of the Kings River Conservation 
District. I would like to thank you for the opportunity to testify to 
you about exciting developments centered around regional water resource 
planning in the Kings River service area and how it relates to the 
economic and environmental benefits of new water storage in the San 
Joaquin Valley to the state and nation.
Background
    The Kings River is the source of life for a rapidly growing region 
in Central California that is also part of the world's most productive 
agricultural area. The Kings River's water development history has been 
one of steady and tenacious advancement against a backdrop of difficult 
physical and legal challenges that out of necessity had to be overcome 
for progress to occur.
    One such important example of forward movement was establishment of 
the Kings River Water Association (KRWA). Consisting of 28 locally 
operated public districts and mutual water companies, the KRWA 
administers all of the water flowing in the Kings River. Since 1927, 
the Association has allocated and administered water distribution for 
over 1.1 million acres of farmland and urban areas within the Kings 
River service area.
    Pine Flat Dam and the 1,000,000 acre-feet of storage it provides 
makes possible the use of the Kings River water for irrigation in a 
more beneficial and convenient manner than was possible prior to its 
construction. The dam has also proven to be a successful and effective 
flood management tool. The runoff from the Kings River fluctuates 
greatly, ranging from a high of almost 4.5 million acre-feet to a low 
of 390,000 acre-feet, with an average annual runoff of 1,745,000 acre-
feet. Flood releases from Pine Flat Dam since it began operations in 
1954 have ranged from 9,700 acre-feet to 2,302,110 acre-feet. The Dam 
also creates storage essential for clean renewable hydropower 
generation at the Jeff L. Taylor Pine Flat Power Plant.
    In 1951, the KRWA and other river stakeholders took steps to secure 
the natural resources in the San Joaquin Valley by obtaining special 
legislation to form the Kings River Conservation District (KRCD). 
Today, KRCD is a leading resource management agency for the Kings River 
region serving agriculture, business and residential communities within 
1.2 million acres spanning portions of Fresno, Kings and Tulare 
counties, three of the top agricultural producing counties in the 
nation. The mission of KRCD is to provide flood protection, cooperate 
with other agencies achieve a balanced and high quality water supply, 
and develop power resources in the Kings River area for the public 
good.
    Irrigated agriculture is the mainstay of the economic well being of 
the Central Valley. Agriculture provides nearly 20 percent of jobs in 
the Central Valley and plays a vital role in California's economy, with 
a value of more than $30 billion. California agriculture contributes 
positively to the U.S. balance of trade payments leading in 
agricultural exports. California ships more than $6.5 billion in 
agricultural products around the world. Agriculture is a major 
component of the economy of the Central Valley and a critical part of 
the state's economy and the nation's food supply. The rich soil and 
moderate climate are important factors contributing to the bounty of 
the Valley, but water is the true lifeblood.
    Nearly a million people live within the Kings River service area. 
Nearly three-dozen cities, towns and villages depend upon groundwater 
conjunctively used and obtained from Kings River surface supplies to 
meet their municipal and industrial water needs. At the same time, the 
valley's population is rapidly growing and the demand for additional 
water is increasing. The population of the Central Valley is expected 
to grow 24 percent between 2000 and 2010, making it the fastest growing 
region in California. A growth rate of this magnitude creates 
substantial pressure on our water and power resources.
    Meeting this demand is challenging, and must occur by increased 
efforts to efficiently and effectively manage our existing resources. 
As a resource agency that provides support to the many entities that 
manage the water on the Kings River, KRCD has become involved in 
numerous regional efforts with the goal of providing a balanced and 
high quality water supply in an environmentally sensitive manner to the 
residents and water users within the Kings River region.
    Many studies and preliminary assessments of possible water supply 
enhancement projects for the Kings River service area have been 
conducted by KRCD over the years. Potential storage projects, such as 
Rodgers Crossing and Dinkey Creek, were examined in past years for the 
benefits each might yield in the way of increased water supply, storage 
capacity and hydroelectric generation. No such project has been 
developed.
    Even before KRCD was formed and Pine Flat Dam was built, water 
storage was part of resource planning in the Kings River service area. 
The earliest groundwater recharge basins began to be developed in the 
1930s as a means of taking advantage of river flows well in excess of 
irrigation needs. From those early beginnings, the effort has expanded 
to numerous programs in water storage, recharge and quality through the 
coordinated effort of the thirty-seven agencies that have a role in the 
Kings River's water resources.
    Overdraft of the groundwater resource is the primary problem to be 
addressed in the Kings River Basin. Overdraft is evidenced by declining 
groundwater levels, increased pumping costs, and loss of groundwater 
supply in some areas. Overdraft increases competition for the available 
supply and creates conflicts between agricultural, environmental and 
urban water users, and between geographic areas within the region. 
Declining groundwater levels and groundwater migration across 
jurisdictional boundaries are also a potential source of increased 
conflict.
    Within the Kings River region, there are over 5,000 acres of 
recharge ponds and flood control basins with the capacity of recharging 
over 100,000 acre-feet of water annually, along with several thousands 
of miles of unlined canals that have direct recharge benefits. One of 
the oldest direct recharge programs is Consolidated Irrigation 
District's (CID) recharge program in the Selma and Kingsburg areas. A 
San Joaquin Valley pioneer in groundwater management, CID began its 
recharge program by acquiring its first percolation basin in 1932. An 
initial plan of sixteen ponds eventually grew to forty-six basins 
covering 1,300 acres located in the sandy soils of the Kings River's 
alluvial plain. South of the river, the Kings County Water District 
maintains 1,600 acres of groundwater recharge facilities and is 
developing a new water-banking project at Apex Ranch, in the Old Kings 
River channel south of Kingsburg. Other Kings River units have 
developed a number of groundwater recharge basins.
    The Cities of Fresno and Clovis, the Fresno Metropolitan Flood 
Control District and the Fresno Irrigation District are involved in the 
cooperative implementation of a comprehensive surface and groundwater 
management effort. The main thrust of the long-standing Fresno/Clovis 
Area Recharge Program involves the use of flood control basins for 
recharge during the summer when they are not needed to control urban 
storm runoff.
    The Fresno Irrigation District, (FID) in a unique long-term 
partnership with the City of Clovis, has launched a bold exchange 
project that annually will result in some 10,000 acre feet of ``new'' 
water for the area, while helping supply the City's recently 
constructed surface water treatment plant. The 240-acre Waldron Pond is 
a water banking facility west of Fresno that will capture excess spring 
runoff from the Kings and San Joaquin rivers and percolate it into the 
huge underground reservoir underlying Fresno County. Since Clovis is 
upstream of the new ``bank,'' it will receive water from FID's 
Enterprise Canal, while FID pumps an equal amount from the new banking 
site for surface delivery to Kerman area farmers. The partnership is a 
model of how cities and irrigation districts can cooperate. With both 
the Cities of Fresno and Clovis recently completing the construction of 
surface water treatment plants, there is the potential for similar 
innovative solutions in other suitable locations.
    The Tulare Lake Bed Coordinated Groundwater Management Plan was 
developed and adopted in May 1995. The Plan encompasses over 250,000 
acres. It includes about 246,000 acres of productive agricultural 
farmland and approximately 4,500 acres of municipal and industrial 
land. Currently, Plan participants include seven public water 
districts, the City of Corcoran, and several private landowners. The 
Plan documents the local groundwater management practices, encourages 
the importation of surface water from the State Water Project, promotes 
efficient water practices and conservation programs and acts to 
preserve local groundwater management.
Current Regional Efforts
    Building on these past successes to address surface and groundwater 
storage, water quality and environmental enhancement, KRCD, the KRWA 
and other resource entities began to recognize the power of regional 
coordination. Collaboration across jurisdictional boundaries has many 
benefits including:
    <bullet>  Avoiding protracted legal battles and loses on both 
sides.
    <bullet>  Allowing for sharing of financial and technical 
resources.
    <bullet>  Building relationships.
    <bullet>  Considering all uses of water: agricultural, urban, and 
environmental.
    <bullet>  Gaining preference from state and federal legislators and 
administrations.
    At this time, a variety of cooperative efforts to preserve our 
valley's water resources are taking shape. Some of these endeavors 
include the Upper Kings River Basin Water Forum, the North Fork 
Conjunctive Management Group, the Kings River Fisheries Management 
Program, the Southern San Joaquin Valley Water Quality Coalition, the 
McMullin Recharge Group, and the Fresno County Water Management Group.
    The Upper Kings River Basin Water Forum (Water Forum) is a multi-
stakeholder group. Representatives of local water districts, cities, 
counties, and other interest groups comprise the Water Forum. It 
provides the wide array of input and support needed so regional 
benefits are achieved and priority issues are addressed. Water Forum 
participants realize that water, land use, and environmental resource 
issues are interrelated and of regional scope, and that both local and 
regional solutions are required. This ensures that responses to one 
issue do not result in undue impacts on other issues. The Water Forum 
has developed guiding principles as it goes forward with its regional 
planning. Some of them include:
    <bullet>  Educating and providing awareness to all participants and 
stakeholders.
    <bullet>  Improving coordination and developing a cooperative 
process toward resource planning.
    <bullet>  Complementing Kings River water rights.
    <bullet>  Utilizing a voluntary, consensus-driven process.
    The Water Forum started through the cooperative efforts of 
Consolidated, Alta, and Fresno irrigation districts and KRCD. The Basin 
Advisory Panel was instrumental in obtaining Prop. 13 funds totaling 
$7.3 million because it was a multi-stakeholder effort. The funding 
went toward a variety of local projects including:
    <bullet>  FID's Waldron Pond located near the City of Kerman. 
Waldron Pond is the first groundwater banking facility to be 
constructed within FID.
    <bullet>  Alta Irrigation District's Harder Pond, a banking program 
that utilizes flows that Alta hasn't been able to put to beneficial 
use. It will help recharge the aquifer on the east side that diminishes 
in dry years.
    <bullet>  The City of Dinuba ponding basin, a recharge pond 
supplied by local runoff.
    <bullet>  A feasibility study conducted by KRCD of possible sites 
in which to construct recharge basins in an area of KRCD that does not 
have surface water supplies and consequently has a severely overdrafted 
aquifer.
    Water Forum participants are developing a Kings Basin Integrated 
Water Resources Management Plan. The Plan will define projects and 
programs to manage and develop the surface water and groundwater 
supplies in a sustainable manner. The Plan will be the result of a 
collaborative planning process that is intended to plan for the future 
as well as reduce or avoid conflicts related to the water supply, 
groundwater management, ecosystem restoration, and water quality. Some 
of the regional planning objectives of the Water Forum include:
    <bullet>  Compiling an inventory of existing water resource plans 
and policies for the region.
    <bullet>  Developing an integrated hydrologic model to evaluate 
water budgets, define basin operations and evaluate alternatives 
analysis.
    <bullet>  Generating locally based water demand and needs analysis.
    Currently the Water Forum is preparing a Prop. 50 Project Grant 
application to secure funding totaling approximately $32 million for 
projects that will address the region's groundwater overdraft. The 
projects identified for funding include:
    <bullet>  Using reclaimed water from the City of Clovis's water 
reuse facility to irrigate park strips, freeways and landscaping. This 
is an in-lieu recharge project (meaning that a source of surface water 
would bee used in lieu of pumping groundwater).
    <bullet>  Using recycled water from the City of Dinuba's water 
reuse facility to irrigate a municipal golf course. This is an in-lieu 
recharge project.
    <bullet>  Banking flood waters from the Kings River in a 64-acre 
ponding basin developed jointly by Fresno Irrigation District and 
Consolidated Irrigation District.

[GRAPHIC] [TIFF OMITTED] T1760.008


    Water agencies from western Fresno and Kings counties have formed 
the North Fork Conjunctive Water Management Group to explore potential 
projects and conduct studies that can provide benefits for the valley's 
water supply. Members include Murphy Slough Association, Crescent Canal 
Company, Stinson Canal and Irrigation Company, KRCD, Burrel Ditch 
Company, Liberty Canal Company, Laguna Irrigation District, Riverdale 
Irrigation District and California Department of Water Resources.
    A model partnership has been forged between KRCD, the Kings River 
Water Association and the California Department of Fish and Game to 
create the much-heralded Kings River Fisheries Management Program. 
Launched in May 1999, the Kings River Fisheries Management Program is a 
cooperative effort to enhance the broad range of fish and wildlife 
resources of the Kings River and Pine Flat Reservoir, while protecting 
the established water rights held by Kings River water users. The 
program relies heavily on strong public involvement through its Public 
Advisory Group.
    Based on the results from comprehensive research and careful 
monitoring, KRCD--along with the KRWA and the California Department of 
Fish & Game (CDFG)--implements a variety of enhancement projects to 
benefit fish populations while helping to meet the desires of anglers 
and other outdoors enthusiasts on Pine Flat Reservoir and the river 
downstream from Pine Flat Dam. The projects are funded by the three 
agencies They have, in total, jointly made a $2 million commitment to 
the program over a 10-year period with which to develop numerous 
fishery enhancement projects in the river.
    In addition, the 28 member units of the KRWA voluntarily made 
available 12 percent of their Kings River water supplies in order to 
create a temperature control pool of 100,000 acre-feet within Pine Flat 
Reservoir. The KRWA's member agencies also agreed to make available 
higher flows of water from the dam at times of the year in which there 
are no irrigation or flood release demands. The CDFG has termed the 
Fisheries Management Program ``a model'' for cooperation in addressing 
fishery issues.
    KRCD has been monitoring the water quality of the Kings River since 
1978. However, in recent years, water quality issues and regulations 
have increasingly become a major focus for California water agencies, 
including KRCD. The Southern San Joaquin Valley Water Quality Coalition 
was formed for the purpose of jointly and cooperatively addressing 
water quality issues common to the water and resource agencies in the 
Tulare Lake Basin watershed. The Coalition's members are working with 
the Central Valley Regional Water Quality Control Board to implement 
watershed coalitions on the various river systems to comply with the 
Conditional Waiver of Agricultural Discharge with a focus on the Tulare 
Lake Basin watershed as a unique hydrological region separate from the 
Delta.
    The Southern San Joaquin Water Quality Coalition, formed in 2002, 
serves the Tulare Lake Basin watershed from the San Joaquin River south 
to Kern County. Members of the Coalition include primary resource 
management agencies on the Kings, Tule, Kaweah and Kern Rivers that 
drain into the Tulare Lake Basin. Coalition members are dedicated to 
protection and preservation of San Joaquin Valley water quality. The 
Coalition has implemented additional water quality monitoring and 
collection points at various locations to supplement data that has been 
collected historically, and has embarked on an extensive public 
outreach program.
    The McMullin Recharge Group was formed in 1999 to address the long-
term water supply imbalance in the Raisin City area caused by the total 
lack of surface water available for irrigation. The area is outside of, 
but adjacent to, the Kings River service area and is irrigated fully 
utilizing pumped groundwater. Studies are being conducted to locate the 
best sites for recharge basins in the 148,000-acre project area. 
Members of the group include the James Irrigation District, Mid-Valley 
Water District, Raisin City Water District, Tranquillity Irrigation 
District, KRCD, and Teranova Ranch, Inc.
    A newly developed regional effort is in the early stages of 
forming, the Fresno County Water Management Group has developed a work 
plan and draft MOU between water purveyors, the county, incorporated 
cites and the building industry to catalog demand and supply and to 
address cooperative solutions to water supply issues. All of these 
regional efforts are setting forth the plans and identifying the 
projects that will be needed to ensure our Valley's future water 
supply.

Conclusion
    Development of storage on the Kings River has provided a multitude 
of benefits: water for homes, farms and industries; recreation; flood 
control; hydroelectric power; replenishment of the valley's underground 
water storage, and for flows for environmental enhancement. The river 
has developed into an effective project of conjunctively using supplies 
of surface water and groundwater to create a steady and reliable supply 
of water and clean affordable power throughout much of the Kings River 
service area. Such a reliable water supply has fueled the San Joaquin 
Valley's economic engine while providing tools necessary to implement 
successful environmental enhancements and maintain water quality. 
However, water demands and needs within this rapidly growing region are 
increasing.
    Thus, Kings River interests are pressing forward with regional 
planning that includes additional storage so the Valley has the new 
supplies of water needed to maintain agriculture, supply the needs of 
the residents, meet the demands of the business sector and provide 
fishery enhancement.
    In recent years, there has been a change in water storage emphasis 
on the Kings River, from unsuccessful attempts to develop additional 
surface water storage to turning toward development of additional 
groundwater basin storage in order to supplement Pine Flat Reservoir's 
capacity of one million acre-feet.
    This effort has resulted in significant successes although it 
remains to been seen if groundwater storage, on its own, can meet all 
needs. Indeed, it has become evident that increasing reliance upon 
groundwater storage is not necessarily a silver bullet. It comes with 
limits and constraints--not the least of which involve conveying river 
water to often distant groundwater recharge percolation or banking 
basins, and the relatively slow physical rate that water seeps into the 
ground when compared with the huge flow quantities that rain and 
snowmelt flood events can generate. There are also increasing concerns 
in today's resource-conscious environment over the need to make use of 
costly and frequently short supplies of energy to extract groundwater 
banked from high surface flows for future use. Finally, as agencies 
attempting to develop groundwater-sinking facilities have learned, for 
a number of reasons not all neighbors are anxious to have a new pond 
next door.
    In the bigger picture, there is no question that reliability of the 
surface water supply is the key to stabilizing groundwater supplies and 
maintaining high water quality. Undoubtedly, additional surface and 
subsurface water storage features will be a benefit to regulate the 
tremendous variability in flows, which are characteristic of the Kings 
River. Ultimately, additional surface water supplies will need to be 
developed to offset the existing groundwater overdraft. Without these 
continuing efforts, the area served by this river will one day be short 
of this key ingredient necessary to insure continued prosperity.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Orth. Appreciate your 
testimony.
    [Applause.]
    I now recognize Mr. Prosperi to testify. Denis, welcome to 
the Subcommittee.

             STATEMENT OF DENIS PROSPERI, FARMER, 
                       MADERA, CALIFORNIA

    Mr. Prosperi. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate being invited today.
    Mr. Radanovich. Can you pull that up a little closer, 
Denis?
    Mr. Prosperi. Get closer?
    Mr. Radanovich. Yes.
    Mr. Prosperi. I appreciate you inviting me today to speak. 
I am a farmer in Madera, have been for 35 years, and I am 
Chairman of the Madera County Water Committee on the Aliso 
Water District, Chairman of the Madera County Farm Bureau Water 
Committee, and have been pretty active in water, as Congressman 
Radanovich I am sure is aware of. And I do appreciate this 
meeting today.
    To echo what my two neighbors to the right of me said, and 
to tie in to what Congressman Costa alluded to in his speech, 
which I think was very apropos about the toolbox, I think the 
toolbox--all the different things we can do to solve the water 
problem is the key.
    But I am here to say, and you have heard it from the two 
guys to the right of me today, the toolbox--am I not talking 
loud enough, George?
    Mr. Radanovich. No, you are fine. I think you are OK.
    Mr. Prosperi. I am sorry. The toolbox, agriculture, and 
this Valley has stepped up to the plate. Sixty years ago when 
we were running out of water, you know, our leaders and 
agricultural people in this community got together and the 
water people and we built the dam. We created the first 
conjunctive use, which is kind of key word you hear today about 
conjunctive use. We have been doing conjunctive use in this 
Valley for 60 years called the Friant Water Users Authority and 
percolating over 1-1/2 million acre-foot of water in the 
ground.
    Later on, the last 10 years, agriculture again with the 
water people were asked to step up to the plate and figure out 
ways to conserve water. We went to drip irrigation, micro 
irrigations, and computerized systems, and as you all know the 
efficiency levels have gone way up, and so has the 
conservation.
    Once again, we were asked to figure out ways to store water 
without building dams. We stepped up to the plate. You heard 
the projects--water banks here, enhancement programs there, 
more groundwater storage, more coming, agriculture, City of 
Fresno, the Waldron Project. I can go on and on; I think you 
get the hint.
    There comes a time when you have stepped up to the plate, 
you have done what you have been asked, but we are still short 
of water. November, the last two weeks, ran 8,000 cubic feet 
per second down the river. That is 16,000 acre-feet a day. That 
is--to put that in perspective, the City of Madera uses around 
30,000 acre-feet per year. Forty-eight hours, the San Joaquin 
River, more water went down that river than the City of Fresno 
would have used in the whole year.
    Water banks, great idea. Water enhancement programs, great 
idea. Madera County--MID has a new water enforcement program I 
would like to speak on. That is a great project. The MID is 
fully equipped to manage it, control it. They have reached out 
to their neighbors in the neighboring districts. They have gone 
about building the project in a proper fashion. They have good 
leadership. And the water bank that they are putting together 
has the potential to help Madera County with our severe 
overdraft.
    Madera County is classified as one of the most severe 
overdrafted counties in the State. We have over 100,000 acre-
foot of overdraft a year. Will it solve the problem? No. Will 
it alleviate it? Yes. Will it buy us time to fix the problems 
that we have? Yes. But when you put it in perspective, you have 
a water bank that can take in 200 or 300 cubic feet per second 
compared to 8,000 going down the river last week, it gives you 
the idea of what can be done with water banks.
    Mr. Orth alluded to that in his speech, about the timing, 
the percolation rates. My point is agriculture and our water 
people have really worked hard in the last 50 to 60 years. They 
didn't just start last week. They have been working very hard 
to try to find ways to solve water problems, but there comes a 
point you actually have to store more.
    What does more storage give us? It gives us more 
conjunctive use. What have we been doing for 60 years? We have 
been conjunctively using the Millerton Lake. But there is only 
so much you can get out of a 500,000 acre-foot lake that has 
the same watershed as a million acre-foot lake in the Kings 
River.
    So in that regard, we created the San Joaquin River 
Resource Management Coalition, and that coalition consists of 
three--well, it consists of a lot of people. It consists of all 
the water districts along the river, all of the landowners, the 
exchange contractors, Aliso, Gradley Ford, MID, Chowchilla.
    We decided to take a proactive--not just sit here like many 
constituents that the Congressmen here throughout the United 
States on problems demanding to be heard. We don't demand 
anything. We do demand to be part of the solution. And with 
that regard and with the help of the Chairman of the Committee 
here, we were able to obtain a $1 million grant from the EPA. 
Have spent over two years looking at river restoration, what 
are the constraints, what could be done, what could be done if 
we had new water, and we didn't encroach on anybody's current 
water uses.
    And with that came the conclusion, which is going to be 
ruled out here in the next month or so, that, yes, you can do 
more to help for a warm water fishery. But to restore the San 
Joaquin River without putting hundreds of thousands of acres of 
land out of production is an impossibility, even with more 
storage.
    We also, through the RMC, have created the San Joaquin 
River Task Force, which brought in three counties--Merced, 
Madera, and Fresno County supervisors--along with the RMC, 
exchange contractors, and the Friant Water Users Authority. And 
with that, we are looking at many issues on the river.
    When you look at a dam, you are thinking of water and the 
cost, and you are going to hear about the cost of the water. 
Can the communities afford the cost? When you have the United 
States Army Corps of Engineers, Sacramento, San Joaquin Basin's 
comprehensive study that was a few years ago looking at 
spending $3 billion flood control on the Sacramento and San 
Joaquin Rivers, and if you presume even a third of that money 
was going to be on the San Joaquin River, that would pay for 
your dam.
    When you consider the ring levees that were proposed to put 
around Firebaugh, and the 60 miles of levees to protect 
downstream flooding, which eventually will happen again, you 
begin to wonder if our priorities are in the right spot.
    And I see I have the red light, so I will speed it up.
    Mr. Radanovich. Well, you can wrap it up if you want to.
    Mr. Prosperi. OK. When you see that----
    Mr. Radanovich. I mean, I know you don't like to talk much, 
but----
    Mr. Prosperi.--you have to wonder----
    [Laughter.]
    Thanks, George. When you see that, you have to ask 
yourself: are we allocating our resources in the best possible 
method? When you look at the FEMA flood plain study that is 
going on that is changing the flood mapping on the Madera and 
Fresno side of the San Joaquin River, and what that is going to 
do to private property rights, you have to ask yourself: are we 
spending our money wisely?
    To do nothing, which is what we have done in water for the 
last 20 years, is a decision. And sometimes societies are 
afraid to make decisions, because they might make the wrong 
one. But making no decision is making a decision.
    And with that, I would like to thank the Committee. And, 
specifically, I know you have a great committee, George, but I 
would like to point out to Ms. Napolitano--I would like to 
personally thank her for coming on the tour of the San Joaquin 
River last year and coming from Southern California. I thought 
she was here really to learn about the river, and I appreciated 
that.
    Thank you.
    [The prepared statement of Mr. Prosperi follows:]

        Statement of Denis Prosperi, Owner, Denis Prosperi Farms

Testimony Outline
    San Joaquin River Resource Management Coalition
    1.  Background of local stakeholders mobilization
    2.  NRDC Friant settlement USJRRP Process
    3.  Enron - Madera Ranches Water Bank
    4.  U.S. ACOE Sacramento and San Joaquin Basins Comprehensive Study
    5.  CALFED Upper San Joaquin River Basin Storage Project 
Investigation
    6.  San Joaquin River Resource Management Coalition - Upper San 
Joaquin River Conceptual Restoration Plan Study
    7.  FEMA study of the 100 year flood event
    The San Joaquin River Resource Management Coalition was formed in 
order to proactively deal with these issues. The RMC immediately 
secured EPA grant money to comprehensively study the issue areas as one 
project. The Upper San Joaquin River Conceptual Restoration Plan is in 
the last phases of being accomplished. The plan provides a sound 
scientific analysis of what is achievable restoration and restoration 
goals that are NOT achievable. It also develops a decision framework 
that will allow the local stakeholders and other affected parties to 
use to evaluate and make sound decisions about any purposed restoration 
projects.
    The RMC goals are:
    1.  Stay actively involved in the Upper San Joaquin River issues 
that affect both landowners water and property rights.
    2.  Become the clearing house for all purposed projects on the 
upper San Joaquin River.
    3.  That San Joaquin River Restoration plans needs to be based on 
making ``New'' water available and not taking existing San Joaquin 
River water users supplies.
    4.  Evaluate the on going studies of the San Joaquin River as it 
pertains to flood control operational efficiencies.
    Benefits to surface storage:
    1.  Create new water supply for San Joaquin River Conceptual 
Restoration plan.
    2.  Eliminates the need to spend additional dollars for down stream 
flood protection and therefore attains the goals of the U.S. ACOE 
Sacramento and San Joaquin Basins Comprehensive Study
    3.  Allows for a practical conclusion on the FEMA study (see 
attachment)
    4.  Allows conjunctive use and ground water storage projects to be 
much more efficient both from a water supply and cost stand point.
    5.  Friant dam has allowed for a valley wide conjunctive use of 
surface water for over 60 years, additional surface water storage would 
allow for more conjunctive use which should be everyone's goal.
    FEMA Flood Plain Issues on the Upper San Joaquin River
    1.  The flow rate of the 100-year flood has been computed by the 
U.S. Corps of Engineers. The rate is the basis for the FEMA flood 
insurance rate maps showing areas that flood during a 100 year flood 
event.
    2.  The Corps has computed the theoretical flow on numerous 
occasions and it always was in the range of 20,000 to 25,000 cfs up 
until the 1997 flood event.
    3.  After the floods of 1997 the Corps and the State Reclamation 
Board jointly performed the San Joaquin and Sacramento River Basins 
Comprehensive Study.
    4.  The Corps revised flow rate after the 1997 flood is 
approximately 71,000 cfs.
    5.  In 2003, Madera and Fresno Counties filed an appeal with FEMA 
of the 71,000 CFS based in hydro logic studies performed by a 
consultant which demonstrated that the flow should be about 21,000 cfs.
    6.  In 2004, the Counties also filed a Letter of Map Request (LOMR) 
to change the flood inundation mapping to the 21,000 cfs flow.
    7.  In 2005, the FEMA denied the appeal of the flow rate and 
rejected the LOMR since it was based on the same information.
    8.  Currently the counties and local stakeholders are working on a 
new LOMR for submittal to FEMA based on new information,
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Prosperi. Appreciate it.
    [Applause.]
    I now recognize Mr. Carter from the Revive the San Joaquin 
to testify. Mr. Carter, welcome to the Subcommittee, and you 
may begin.

             STATEMENT OF LLOYD CARTER, DIRECTOR, 
           REVIVE THE SAN JOAQUIN, CLOVIS, CALIFORNIA

    Mr. Carter. Good morning, Chairman Radanovich, and members 
of the Committee. My name is Lloyd Carter. I have been writing 
about California water issues since 1969, first as a long-time 
reporter for UPI and also for a few years as a Fresno Bee 
reporter. I have also taught water law at San Joaquin College 
of Law, and continue to write and speak on Valley and State 
water issues.
    I appreciate the opportunity to address the Subcommittee, 
and welcome Congressman--Congresswoman, excuse me--Napolitano 
to Fresno.
    I applaud the addition of Congressman Costa to the 
Subcommittee. He has a wealth of knowledge on State water 
issues that I hope the Subcommittee will utilize.
    I am the President of the nonprofit California Save our 
Streams Council, but I speak today as a director of a new 
Fresno-based group Revive the San Joaquin, which believes that 
it is possible to have a restoration of fishery flows and still 
protect the east side farming economy.
    Our board members include members of the Parkway Trust, 
concerned citizens, and one brave Kerman farmer who fished for 
salmon as a boy along the banks of the San Joaquin before it 
went dry. We are not radical extremists, San Francisco elitist 
environmentalists, to use the labels of some Friant interests. 
We believe compromise is possible, and much of the water war 
rhetoric is counterproductive.
    We don't stereotype farmers any more than we stereotype 
environmentalists, and we disapprove of much of the name 
calling and sloganeering that has been going on. However, I 
must say I do not believe this current battle over the river is 
about farmers versus fish, unless you ignore the legitimate 
demands of South Delta farmers who are downstream on the river, 
commercial salmon fishermen, and the safe drinking water needs 
of 22 million people who get their water from the Delta.
    Nor is it about fish versus food, unless you believe that 
salmon and trout and bass are not food. Our groups believe that 
the San Joaquin River is a public trust resource owned by all 
Californians, and that some water going down the river to the 
Delta is good for all of us, providing many benefits not only 
to a restored fishery but to groundwater recharge for farmers 
in Madera County, which I know these two gentlemen on each side 
of me are interested in, farmers in Merced, Stanislaus, and San 
Joaquin Counties.
    Water going down the river has expanded recreational 
opportunities for our growing urban population, and it improves 
drinking water quality in the Delta. I want to mention a few 
fundamental facts here that don't get mentioned very often. In 
an average water year, about 75 percent of the San Joaquin 
River goes to Kern and Tulare Counties, which are out of the 
watershed.
    Fresno County, including farming, only gets about 8 percent 
of the river. Madera gets the rest. The North Valley riparian 
counties get zero. There in the Valley now, if we are going to 
have people keep talking about our Valley, we have to include 
the people in the North Valley. That is the Delta. And sad as I 
am to report to many folks, San Francisco and San Francisco Bay 
is downstream on the San Joaquin River. So we need to talk 
about everybody who gets a piece of the action on the San 
Joaquin River.
    In a good water year, like we are having this year, two 
districts in the southern end of the Friant-Kern Canal--Arvin-
Edison and Lower Tule--they get well over--they are eligible to 
receive well over 500,000 acre-feet of cheap Class 2 water. 
That is almost a third of the river going to two districts. You 
can imagine the skepticism of farmers in the south Delta when 
the southern interests in the Friant unit talk about our water 
and our valley.
    I don't want to get into the NRDC lawsuit today. That is a 
snake pit, if there ever was one. But I do want to say that the 
State of California has sided with the NRDC. This is a matter 
of state law. And as folks who respect states' rights, I hope 
you understand that this is a state water law issue.
    I don't believe that Judge Carlton is a renegade rogue 
judge. I have read all of the rulings. He has been repeatedly 
affirmed by the Ninth Circuit. He has said in his written 
orders that he is going to be reasonable in providing a 
solution for the Valley, and I think he will be.
    What we need to realize here is that the San Joaquin Valley 
is quickly urbanizing. Several million people are going to 
settle here in the next few decades. They are going to take 
water away from agriculture, and they are going to speed up the 
conversion of prime farmland. East side farming can grow food, 
or it can grow subdivisions. Either way they will be doing it 
with a publicly owned resource that ends up in private pockets.
    Some folks in farming, and I include the two guys beside 
me, want to stay in farming, and I applaud that. I applaud 
folks in the Friant unit that want to keep the irrigation water 
for irrigation and not create a class of water marketing 
middlemen who buy water cheap from the public and sell high to 
Southern California.
    Chairman Radanovich, you are well aware there is a lot of 
in-fighting going on in the Friant unit. Those folks need to 
settle all of their battles. I want to briefly mention CALFED. 
They have spent $3 billion in the last 10 years, and everybody 
is starting to ask, ``Where did the money go?'' They called for 
an audit on Wednesday. I am sure this committee would love to 
have that $3 billion back.
    I don't want to, however, denigrate the good work done by 
the folks at CALFED, many folks trying to work solutions, but 
the CALFED record of decision, which I recommend to the 
committee to review, said three things on their upper San 
Joaquin river storage investigation--restore the river, improve 
water quality in the San Joaquin River, and improve urban 
drinking water quality.
    Any solution that you are going to deliver I believe has to 
talk about a partially restored San Joaquin River. And let us 
meet the public's trust needs first, and then let us divide the 
other 80 percent. I don't believe that the Judge is going to 
order that any more than 15 or 20 percent of this river is 
going to be required for fishery restoration. There is going to 
be a lot of additional benefits down the river besides fishery.
    The fish and game studies in the 1950s said they only 
thought they needed about 180,000 acre-feet, which is 12 to 15 
percent of the average annual flow, to restore a salmon run. 
Kole and I have talked many times about sending water down the 
river. You can recapture it at Mendota. You can recapture it at 
Delta. We need to bring our 19th century plumbing system in 
this Valley into the 21st Century.
    So the last thing I want to say is that Bill Swanson, who 
is the CALFED contract engineer for Montgomery, Waterson, Harza 
doing studies, they say a dam at Temperance Flat is only going 
to generate about 200,000 acre-feet of water, the last 15 
percent of the river. And the price tag that I have heard--
somebody can correct me--was a few hundred million to a billion 
plus to build a dam at Temperance Flat. And the water is going 
to cost somewhere between $300 to $500 an acre-foot.
    Now I know my farmer friends don't want to spend $500 an 
acre-foot for water. So the Committee needs to ask some hard 
questions about the feasibility of a dam.
    Last but not least, I am greatly encouraged by water 
banking, and I believe that that is the cheapest way, the 
safest way. The head of the EPA said on Wednesday in The Los 
Angeles Times, ``Our lakes are particularly vulnerable to 
terrorist attack.'' If you store water in the ground, it is 
protected; there is no evaporation loss. I believe that 
groundwater storage is the way to go.
    I thank the Committee.
    [The prepared statement of Mr. Carter follows:]

     Statement of Lloyd G. Carter, Director, Revive the San Joaquin

    Good morning Chairman Radanovich and members of the subcommittee. 
My name is Lloyd Carter. I have been writing about California water 
issues since 1969, first as a long-time reporter for United Press 
International and also for a few years as a Fresno Bee reporter. I have 
also taught water law at San Joaquin College of Law and continue to 
write and speak on Valley and state water issues. I appreciate the 
opportunity to address the subcommittee. I also applaud the addition of 
Congressman Costa to the subcommittee. He has a wealth of knowledge on 
state water issues that I hope the subcommittee will utilize.
    I am the President of the non-profit California Save Our Streams 
Council, founded in 1981, but I speak today as a director of a new 
Fresno-based group, Revive the San Joaquin, which believes that it is 
possible to have a restoration of fishery flows and still protect the 
Eastside farming economy. Our board includes members of the Parkway 
Trust, concerned citizens and one brave Kerman farmer who fished for 
salmon as a boy along the banks of the San Joaquin River where it now 
runs dry.
    We are not radical, extremist San Francisco elitist 
environmentalists, to use the labels of some Friant interests. We 
believe compromise is possible and that much of the water war rhetoric 
is counterproductive. We don't stereotype farmers any more than we 
stereotype environmentalists. We disapprove of much of the name-calling 
and sloganeering which is going on.
    However, I must say I do not believe this current battle in the 
never-ending water wars is about farmers versus fish, unless you ignore 
the legitimate demands of South Delta farmers and the safe drinking 
water needs of 22 million people. Nor is it about fish versus food, 
unless you believe that salmon and trout and bass are not food. A more 
accurate description is upstream and, I might add, out-of-the-watershed 
interests in a portion of the Friant Unit versus downstream interests, 
which include the Delta and the San Francisco Bay area, whether we like 
it or not.
    Our group believes the San Joaquin River is a public trust resource 
owned by all Californians and that some water going down the river to 
the Delta is good for all of society, providing many benefits, not only 
to a restored fishery, but to groundwater recharge for farmers in 
Madera, Merced, Stanislaus and San Joaquin Counties, expanded 
recreational opportunities for our growing urban population, and 
improved drinking water quality in the Delta.
    I need to first mention a few fundamental facts which seem to have 
been lost in the overheated rhetoric over the future of the San Joaquin 
River. In an average water year, about 75 percent of the San Joaquin 
River goes to Kern and Tulare counties, which are out of the watershed. 
Fresno County interests, including farming, get only about eight 
percent of the river and Madera County gets the remainder. The North 
Valley riparian counties get zero. In a good year such as the present 
year, just two districts on the southern end of the Friant-Kern Canal, 
Arvin-Edison and the Lower Tule River Irrigation District, are eligible 
to receive around 550,000 acre-feet of cheap class II water, almost a 
third of the river's average annual flow.
    You can imagine the skepticism of farmers in the South Delta when 
southern interests in the Friant Unit talk about ``our water'' and 
``our Valley.'' Without getting into the pros and cons of the NRDC 
litigation, I would simply remind the subcommittee that the State Water 
Resources Control Board has sided with NRDC on the issue of whether 
state law should prevail and that Judge Karlton has been repeatedly 
affirmed by a panel of judges in the Ninth Circuit. He is not a 
renegade, rogue judge. He is following state and federal law.
    Nor do I have to remind the subcommittee of the court battles 
looming when local interests, not only in Northern California but here 
in the Valley, began to invoke the county-of-origin and area-of-origin 
statutes to protect their priority claims on their local rivers. Rumors 
that some in the Friant Unit want to promote repeal of the area-of-
origin statutes will surely trigger yet another water war with Northern 
California.
    The title of today's hearing is ``Economic and Environmental 
Benefits of New Water Storage in the San Joaquin Valley.'' I hope and 
believe that's a carefully chosen title and exhibits a global approach 
to our common problem because it includes the whole valley and not just 
reservoir storage on the San Joaquin River or the desires of some 
elements of the Friant Unit.
    The San Joaquin Valley is quickly urbanizing. Several million more 
people will settle here in the next few decades, taking water away from 
agriculture and speeding up the conversion of prime farmland. Eastside 
farming can grow food or it can grow subdivisions. Either way they will 
be doing it with a publicly owned resource that will only grow more 
valuable. Some folks in farming want to stay in farming and I applaud 
that. Some folks in agribusiness want to turn water into the new cash 
crop and cut deals with Southern California to commodify our most 
precious resource. A key question for Congress is if you fund a new dam 
will you be subsidizing future farming or future water marketing?
    This committee needs to determine to what purpose any new storage 
facilities will be dedicated. I suggest a fair and equitable division 
between clean drinking supplies for the public, groundwater recharge, 
farming needs and fishery and recreational needs.
    I fear that holding out the prospect of a dam at Temperance Flat as 
a solution to current water supply problems in ALL the valley, and I 
emphasize ALL, will take us in the wrong direction, raise false hopes 
and will only lead to more friction between stakeholders.
    As Chairman Radanovich is well aware, there is some fierce 
infighting within the Friant Unit over whether some growers on the 
southern end of the Friant-Kern Canal are going to get rich re-selling 
river water to developers.
    In addition, as we are all painfully aware, CalFed has spent $3 
billion in the last decade trying to solve California's water supply 
and water quality problems, particularly in the Delta. More alarming 
are recent news reports that zooplankton and open-water fish species in 
the Delta are collapsing, a development CalFed missed. And so, 
predictably, editorials and columns in Delta and Bay area newspapers 
have been asking if CalFed has been spending that money wisely. 
Critics, including some Members of Congress, say CalFed has gone off 
the rails and Californians certainly have not received any long-term 
solutions to the Delta crisis or the water supply problem. Indeed, the 
head of CalFed this week called for an audit to determine where the $3 
billion went.
    However, I do not wish to denigrate all the work done by the folks 
at CalFed. There are lots of people of good faith earnestly seeking 
solutions to our state's water problems. The CalFed Record of Decision 
was very clear about the three purposes that were supposed to be served 
by the Upper San Joaquin River Storage Investigation: 1) restoring the 
San Joaquin River, 2) improving water quality in the San Joaquin River, 
and 3) improving urban drinking water quality. (ROD p. 45). This makes 
sense, because CalFed is about enhancing water supply reliability, 
water quality, and the ecosystem of the Delta--not providing more water 
to interests outside the river's watershed.
    It appears the Bureau of Reclamation is choosing to ignore CalFed's 
conclusions on this point. I have seen no public statement from Bureau 
officials that they will pursue a storage project that will result in 
any additional flows between Friant Dam and the Delta--an obvious 
requirement if the mandated purposes of the Record of Decision are 
going to be met.
    Nowhere does the CalFed Record of Decision mention local water 
supply enhancement, flood control, recreation, or hydropower, yet these 
are now the favorite ``benefits'' touted by proponents of Temperance 
Flat--even though it is my understanding that there will be no net 
hydropower benefits because a Temperance Flat project will flood out 
the power generating facilities at Kerckhoff Reservoir upstream from 
Friant Dam, a move sure to be opposed by PG&E.
    The CalFed Record of Decision did not specifically endorse 
Temperance Flat. It only directed an investigation into increasing 
surface storage at Millerton or a ``functionally equivalent'' solution 
(ROD, p. 45) As I think you know, State Senator Mike Machado has a bill 
moving through the Legislature which will fund studies to find ways to 
both restore the San Joaquin River and protect East Side agriculture. 
Senator Dean Florez' bill to keep the status quo on the San Joaquin 
River was dead on arrival.
    This committee will have to have the wisdom of Solomon to solve the 
water supply disputes just over the San Joaquin River, much less the 
San Joaquin Valley or lands encompassed by the Central Valley Project.
    I also note that Department of Fish and Game studies conducted in 
the 1950s on restoring a salmon run indicated it would take about 
180,000 acre-feet a year of water in pulsed flows, or only about 12-15 
percent of the average annual flow. I have not heard any credible, 
objective figure over 20 percent of the river's flow in public 
discussions about how much water is needed to restore a fishery.
    I do know that Judge Karlton has written that any river restoration 
must be ``reasonable'' which belies the reported claims of some Friant 
Unit interests that in dry years ALL the river's water will go to fish 
and agriculture will get none. That is simply speculative fear 
mongering
    When we consider the question of new storage, the issue is not do 
we need it--which we obviously do--but where do we store this water? 
For over 60 years, government experts and hydrologists have said that 
the ground is the cheapest and safest place to store water. Kern 
County, with its innovative water bank, is leading the way in this 
area. Madera Irrigation District, with its proposal for a Madera 
Groundwater Bank, is right behind. I believe groundwater banks should 
be a part of every irrigation district in the Friant Unit. I think this 
is the wave of the future.
    I know Congressman Nunes is going to be seeking $200 million from 
Congress for a retrofit of the dam on Lake Success because of concerns 
over earthquake safety. I'm not sure how much success this subcommittee 
will have convincing Congress and the President that we need an 
additional $700 million to $1 billion to build a dam at Temperance 
Flat. I know this committee held a hearing this past week on creating a 
trust fund for clean water and that America faces a water 
infrastructure funding gap of $400 billion of dollars over the next 20 
years. It is estimated that it will cost $20 billion annually for the 
next 20 years to build, repair and maintain deteriorating water systems 
in this country. Your subcommittee, presumably, has to make the initial 
tough choices on which water projects to recommend for funding by the 
full Congress and the President.
    Can there be a living San Joaquin River with a healthy fishery and 
a stable Eastside farm economy? Yes. It's being done on the Merced, 
Tuolumne and Stanislaus rivers. Those rivers have salmon runs, great 
trout fisheries and still supply water for local farming, cities and 
industries. They also contribute water to reduce Delta salinity 
problems caused by a drying up of the San Joaquin River 60 years ago.
    Bill Swanson of the engineering firm of Montgomery Watson Harza, 
which is doing a CalFed-funded feasibility study of Temperance Flat, 
said recently a new dam would yield only an additional 200,000 acre-
feet of water. Swanson, in remarks reported in the May 2005 Fresno 
County Farm Bureau publication ``Agriculture Today'' said such a dam 
``would help capture the last 15 percent'' of the river's supply.
    Initial ballpark estimates of the cost of constructing a dam at 
Temperance flat have ranged from a few hundred million dollars to well 
over a billion dollars. Cost of the water produced thus could range 
from $300 an acre-foot to well over $500 an acre-foot. I know of no 
irrigation district in the Friant Unit willing to pay even $300 an 
acre-foot for water. The question then becomes who will be footing the 
bill for a new dam: The American taxpayers or the direct beneficiaries 
of new dam storage. That question definitely needs to be answered.
    One simple, but not insignificant problem with surface storage, of 
course, is that you have tremendous evaporative loss on summer days 
when the temperature gets up around 100 degrees. I think this 
subcommittee should ask CalFed or the Bureau to provide estimates of 
evaporative losses off a Temperance Flat reservoir, off Millerton, and, 
indeed, off all of the foothill storage reservoirs along the Southern 
Sierra. I think you will be surprised and dismayed at the volume of 
water disappearing into thin air because we store it above ground, not 
below.
    In addition, surface lakes are particularly vulnerable to terrorist 
attacks. EPA Administrator Stephen Johnson was quoted in the Los 
Angeles Times this week that that safeguarding America's water supply 
from terrorists and pollutants will be a major issue in the 21st 
Century and that water storage reservoirs are particularly vulnerable. 
Security experts say dams and lakes are easy targets.
    Engineer Swanson also noted that any dam at Temperance Flat, even 
if approved today, could not be completed until at least 2015 and a 
more reasonable estimate. Is 2025. So the question is what are we going 
to do over the next two decades?
    Dams also don't do you much good in a long drought. In the drought 
that began in the late 1980s and lasted into the early 1990s, most of 
California's 1,400 dams sat empty.
    Are there alternatives to new dams? Government experts dating back 
to the 1930s have argued conservation and groundwater storage are the 
cheapest and safest alternatives. Some Bureau experts argued in the 
1930s that East Side irrigation districts should dedicate 10 percent of 
their land to groundwater recharge. Some of the smarter districts in 
the Friant Unit have started to do that. It's money in the bank, so to 
speak.
    The $50 million dollar state-federal five year study that lasted 
from 1985 to 1990 concluded in a report known as the ``Rainbow Report'' 
that up to 500,000 acre-feet of water could be conserved through 
modernizing irrigation systems, increased groundwater storage, improved 
water delivery systems and transfers, new treatment technologies and 
waste water re-use and the idling of marginal or high selenium 
farmlands. Sadly, many of the recommendations of the Rainbow Report 
were never implemented.
    Three years ago the NRDC and the Friant Water Users Authority were 
attempting to work out their differences during a period of settlement 
negotiations. They produced a joint Water Supply Study that looked at 
alternatives to Temperance Flat. Last year, NRDC, the Central Delta 
Water Agency, and others produced a document called ``Vision Piece'' 
which identified numerous strategies for producing an average yield of 
350,000 acre-feet--more than Temperance Flat--at a fraction of the 
cost. I suggest that members of the subcommittee review some of the 
suggestions in those studies.
    Last, but not least, I understand Chairman Radanovich worked hard 
to create and fund a San Joaquin River Trail which includes an 
expensive new footbridge over the river. I thank the Congressman for 
his efforts but apparently that would all be flooded out if Temperance 
Flat is built. Before, this subcommittee pursues a dam-building 
solution it owes it to the American taxpayers to first explore cheaper 
and safer alternatives.
    I would be glad to answer any questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Carter, for being here. 
Appreciate your testimony.
    [Applause.]
    Next is Mr. Kole Upton, the Director of the Friant Water 
Users Authority. Kole, welcome to the Subcommittee.

     STATEMENT OF KOLE UPTON, CHAIRMAN, FRIANT WATER USERS 
               AUTHORITY, CHOWCHILLA, CALIFORNIA

    Mr. Upton. Thank you, Mr. Chairman. It is an honor and a 
privilege to appear before your Committee today. I want to make 
sure the record shows that I am sitting to the left of Lloyd 
Carter. My position is not to the left of Lloyd Carter----
    [Laughter.]
    --on water issues.
    [Laughter.]
    I want to commend the representatives we have in the 
Valley, both Federal, State, and local, for working in a 
bipartisan manner on water issues. We have had great success in 
the last couple of weeks in working with our legislators in 
Sacramento on water issues, both Democrat and Republican. And I 
agree with Dr. Welty and Congressman Costa that we need to work 
together if we are going to solve these problems in a regional 
way.
    Very basically, I am a farmer in Merced and Madera 
Counties, which is a challenge in itself. More challenging is 
being Chairman of Friant Water Users Authority. The Friant 
Division is about a million acres, 15,000 small-, medium-sized 
farmers.
    But in this service area there are 1-1/4 million people 
that are embedded in the area, and they also depend on the 
surface water, because cities like Orange Cove, with Mayor 
Lopez who is in the audience, and Lindsay, and the City of 
Fresno, get water directly from Friant. A lot of the others 
depend on the surface water to come in to provide the 
sustenance to the underground aquifers, so they can continue to 
pump from their deep wells.
    Now, the reason that the Friant Division was built by the 
Federal Government was because the State couldn't afford it. In 
the '20s and '30s, this area was being overdrafted heavily, and 
they knew they had to do something. The State looked at it, 
couldn't afford it, so the feds came in and built the project.
    The farmers that came in here, this was an opportunity for 
these folks to build a farm, and it happened 50, 60 years ago. 
Many of them are passing on now, but their farms are still 
there.
    What I want to emphasize is this is a government program 
that worked. They were asked to keep their acres at 160, and 
then it was moved up to 960. We have abided by the rules. We 
have paid for everything that has been asked, and now we are at 
a situation here not only about building the dam, but also we 
are being threatened. And I want to--Lloyd didn't want to talk 
about the NRDC lawsuit, but I am going to talk about it.
    I think our generation--we are living off the sweat and the 
tears from the previous generation in building this dam. What 
our generation has done, quite frankly, is tried to ensure the 
environments in a reasonable and prudent manner for the future. 
But in so doing, we have empowered an environmental movement 
that has the power to stop almost any project. And they 
frequently do.
    In addition to that, they have the power to threaten 
projects, and what we have today is we have NRDC and their 
lawsuit for 17 years, is threatening our current users in the 
Friant Service area. And if they win, they are going to take a 
significant portion of the water.
    Now, I agree with Lloyd when he said this is a public 
resource. But how do you divide up a public resource? Well, you 
have representatives from Congress that you elect. These 
congressional representatives 60 years ago decided they wanted 
to dry up this river, provide an opportunity, and sustain this 
aquifer. Were they right? I don't know. But they represented 
the public, and they made that decision.
    And a lot of people today have based their lives and cities 
have based their futures based on that decision. So now, for 
somebody to come in and say, ``Well, the State law, we don't 
like what is being done and we are going to try to reverse 
it,'' obviously we are going to fight that. And there is not a 
lot of option here.
    I can agree with Lloyd that some form of restoration may be 
perfectly feasible. NRDC doesn't give a set option. There is 
only one option with them--a self-sustaining salmon fishery, 
the Cadillac of all fisheries. It takes the most water, the 
coldest water, and is hardest on the current users. So when 
somebody says, ``Restore the river,'' be sure and ask them what 
they are talking about.
    What should we do? What do we do today? I think we build 
Temperance Flat. That brings you a lot of water. If we had had 
it in '97, we would have saved two million acre-feet. If we 
would have had it this year, it probably would have saved 
another million and a half or so. That is a lot of water up 
there.
    I know the people that calculate this say, ``Well, it is 
only an average of 200- or 300,000 acre-feet,'' but as a farmer 
I look at it, if you have 1-1/2 million, 2 million acre-feet up 
there, that is going to last you a long time.
    What are the obstacles? The obstacles that I see, quite 
frankly, are some in the environmental movement that refuse to 
stand up to the folks to say, ``No in-stream storage, none of 
this, none of that.'' And
    I would speak to my friend Lloyd here. He is not a 
mouthpiece for anybody. He is independent, and I would urge him 
to try to get involved in Senator Costa's regional plan where 
we are going to try to get regional leaders involved. And we 
need environmentalists to be a part of that. And once we all 
get on board, then we move forward with a plan and see if we 
can get it implemented.
    And this--I am probably out of place, Mr. Chairman, but I 
would recommend, even though it may not be reasonable, prudent, 
or feasible--that Temperance Flat be submitted as a bipartisan 
bill on a fast track in Congress.
    Now I understand you have some guy named Thomas or 
something from the Southern Valley that has quite a lot of 
power, and I would think that if you could get him engaged that 
perhaps we could get this thing through, because to be honest 
about CALFED, in my perspective, never have so many people 
spent so much money to do so little.
    [Laughter.]
    And I am afraid that----
    [Applause.]
    I am afraid if we get in that--Temperance Flat involved in 
that quagmire, we are never going to move.
    So I want to thank you again for inviting us, and again for 
your leadership on the water issues, and the other folks in the 
Valley delegation.
    [The prepared statement of Mr. Upton follows:]

  Statement of Kole M. Upton, Chairman, Friant Water Users Authority, 
                  Director, Chowchilla Water District

    Mr. Chairman and Members of the Subcommittee:
    It is an honor and privilege to appear before this Committee to 
testify on this issue, one that is of vital importance to the future of 
the San Joaquin Valley. First, I would like to commend the legislators, 
Federal, State, and local, for working together on San Joaquin Valley 
water issues in a productive and bi-partisan manner. Cooperation and 
consensus among all the people who depend on this water to sustain 
their livelihoods is the only way we can resolve the difficult 
challenges ahead.
BACKGROUND
    The Friant Division of the Central Valley Project serves 
approximately 15,000 farmers on one million acres of farmland in parts 
of Kern, Tulare, Fresno and Madera counties and where I live, Merced 
County. It sustains underground water supplies relied upon by 
residents, businesses and industries in the embedded cities within the 
Friant service area. Those cities now have a population of 1 1/4 
million people. This project along the southern San Joaquin Valley's 
East Side was specifically designed to correct the overdraft of the 
underground aquifer that occurred during the 1920's and 30's when 
residents had only deep wells for a water supply. The aquifer was being 
depleted and folks had to leave the area when their water ran out. By 
the time construction began on Friant Dam in 1939, about 50,000 acres 
of irrigated land had gone out of production because groundwater had 
been exhausted or was too deep to pump economically. The Friant project 
essentially brought groundwater supplies into balance with usage, to 
support and sustain crops and farm production in times and in places in 
which surface water supplies are not available.
    The State of California could not afford to build the Central 
Valley Project, so the federal government did it. The CVP and Friant 
Division were specifically authorized by Congress. It provided a 
welcome opportunity for thousands of small family farmers and the 
thousands of other people who settled in the nearby communities. Built 
at a cost of less than $200 million, the Friant Division annually 
generates almost $5 billion in crop receipts and economic activity. 
This is a government program that worked! The Friant Division today, on 
an average annual basis, delivers 1.5 million acre-feet of water 
depended upon by farmers and those who live and work in several cities, 
including Fresno, with CVP contracts.
TODAY'S NEED
    We are now at a crossroads. Our generation has lived off of the 
planning, foresight, sweat, and tears of the generation that built the 
project, operated it in full compliance with Reclamation Law, and paid 
for it. Here in Friant, we have done everything asked of us by the 
federal government when our Reclamation project was developed. We have 
developed farms, irrigation systems, communities, an economy and a way 
of life. We have continued to make improvements, gaining a standard of 
water-use efficiency and commitment to conservation perhaps unequaled 
anywhere else in the world's irrigated agriculture. We have done 
everything possible to maximize our overall water supply into one of 
stability and reliability through the conjunctive use of surface water 
and groundwater that our system's designers intended, and it has all 
worked magnificently.
    Our generation has spent several decades in trying to insure that 
the environment is protected in a responsible and reasonable manner for 
the benefit of future generations. In achieving that goal, however, 
society has empowered an environmental movement that has the power to 
stop almost any project under the guise of protecting the environment.
    Specifically, in the Friant service area, our water supply has been 
under legal attack for 17 years by some environmental and commercial 
fishing groups demanding that a self-sustaining salmon fishery be re-
established after having been dead for 60 years. Rightly or wrongly, 
Congress specifically decided to dry up the salmon run in order to 
provide water to the Friant service area from Friant Dam through the 
Madera and Friant-Kern canals. Now, environmental groups think they 
have found a State Law that will enable them to take significant 
portion of this water. If they win, this area will be devastated.
    It needs to be emphasized that we live in a democracy. In the 
Friant service area, not a single city council person, mayor, assembly 
member, state senator, or congressional representative supports the 
position of re-establishing a salmon fishery at the expense of current 
users. This whole effort is being funded and led by folks in San 
Francisco and out of California.
    What should we do? Build Temperance Flat Dam. A new dam at that 
site will provide much additional storage and better flood control. All 
acknowledge that Friant Dam is too small for the watershed. A new dam 
would also provide immense benefits for the environment. It would make 
some sort of river restoration feasible without having to have the 
current beneficial users of this water to suffer. Friant Dam has only 
about 380,000 acre-feet of usable storage. Temperance Flat could 
provide up to 2,000,000 acre-feet.
    What are the obstacles? It is those within the environmental 
movement that reject new in-stream storage out of hand. Unfortunately, 
reasonable environmentalists stay silent during the discussion. The 
environmental movement has been granted immense power by this society. 
With power comes responsibility. It is time the leaders of the 
environmental movement acted in a manner that will allow us to take the 
necessary steps to assure our future generations have adequate and 
affordable water.
CONCLUSION
    My recommendation is that our Valley delegation submit a bi-
partisan bill to put the building of Temperance Flat on a 'fast track'. 
Frankly, the CalFed process does not appear to be a vehicle in which 
anything significant can be accomplished quickly. This area cannot 
afford to wait any longer. The time for action is now.
    Our Valley delegation is as strong as we have seen it in many 
years, with several members being in key leadership positions. If not 
now, when?
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Upton. Appreciate your 
testimony.
    [Applause.]
    I do want to mention that the purpose of the hearing is to 
discuss water supply needs for the San Joaquin Valley. And so 
much of it--and I know that the biggest current issue right now 
is the lawsuits by the NRDC on the San Joaquin River and the 
toll that that could take from agriculture, depending on what 
happens throughout the courts.
    And, Mr. Carter, I am very glad you are here. I hope you 
are not put into the position of answering for the NRDC. I do 
want it to be known that they were invited and did not choose 
to testify before the Subcommittee.
    But it is the issue of the day, and I think in a lot of 
reasons what brings us here today. I would like to get a 
sense--and nobody can know what this court will do or this 
Judge will do. I understand that there will be a trial in the 
first part of next year, and likely lead to a decision.
    It is--he did base it on the state law, but I think he 
stretched like elastic to get way out there to get that 
opinion. It is so unrelated to the issue in an attempt, I 
think, to reach a preconceived outcome. And that was true in 
the Judge's effort, I think, to restore water to the river.
    Can I get a sense of what could be the--in your opinions, 
and anybody can answer this if they want to, what kind of water 
we may be talking about if it is to restore the salmon runs to 
the river? I know, Mr. Carter, you had mentioned 15 percent, 
but can you translate that in acre-feet for me? And then I 
would like to get a sense of what everybody else thinks.
    Mr. Carter. Yes. Let me say a little bit about that suit, 
although I clarify, obviously, I do not speak for NRDC or the 
other--I think there are 14 other organizations----
    Mr. Radanovich. Right.
    Mr. Carter.--that are plaintiffs, which include commercial 
fishermen in the Bay Area and the San Joaquin Raptor Rescue 
Center in Merced County. There are some Valley groups that are 
plaintiffs. And to correct Kole, even though NRDC has won some 
of the preliminary skirmishes in this battle, they don't 
necessarily get everything that they want.
    So I think what was important in the Judge's ruling last 
year was his announcement that he was going to be reasonable. 
And I think we--instead of attacking the Judge, we have to wait 
and see what he does. I told Kole before the meeting this 
morning that a year from now, I think it is May of 2006, they 
are going to have a decision.
    I think that you are going to find the Judge, in fact, is 
going to be reasonable. I don't think he is going to dry up the 
Valley. I----
    Mr. Radanovich. But can you give me a sense, if you could, 
Mr. Carter, what 15 percent translates to?
    Mr. Carter. Well, 10 percent of--if you figure 1.8 million 
acre-feed is the average annual flow, I think it is somewhere 
between 1.7, 1.8 on the river. Ten percent--I am not a 
mathematician. That is why you go into the law.
    Ten percent of 1.8 would be 180,000 acre-feet. So I would 
guess it--and up to 15 percent, so I would guess somewhere 
between 2- and 300,000 acre-feet. I don't think it will be any 
more than 20 percent of the river, average annual flow.
    Mr. Radanovich. OK. I would like to get a sense from the 
other members of the Committee as well.
    Mr. Prosperi. Yes. The San Joaquin River Resource 
Management Coalition, the task force, is just finishing up that 
study I alluded to. We spent over a million dollars evaluating 
that very situation, and the conclusion we came to--or come to 
with CH2M Hill, and many, many hours of studying both the NRDC 
and Friant data, and all of the data we could put together with 
our hydrologists, have come up with a little different number.
    We come up with, at a minimum, on a dry year would be 
300,000 acre-feet to just maintain some sort of vegetative 
habitat, to 1.7 million on a wet year for salmon. And you are 
probably looking at about 800- to a million acre-feet to 
actually keep a sustaining salmon fishery going. There is a lot 
of issues.
    It is just not a matter of sending water down the river and 
getting it to Merced. You have the water temperature, which has 
an even--the studies haven't been finished yet, because 
obviously is you send water 100 and some miles and it turns 
warm and you kill the fish, you end up with a Klamath 
situation. So----
    Mr. Radanovich. Can you give me an idea of the storage 
behind Friant right now?
    Mr. Prosperi. I am sorry?
    Mr. Radanovich. The whole amount of storage behind Friant.
    Mr. Prosperi. 520,000 acre-feet.
    Mr. Radanovich. OK.
    Mr. Prosperi. So for Friant to have a good water year--I 
think it is a good point, Congressman--you really need to empty 
and fill Friant about two and a half to three times to have a 
good water season. Our watershed may be 1.8, but the dam hole 
is 500,000.
    So when you are looking at that, and you are also thinking 
about how you are going to get cold water to travel 100 miles 
to hook up to the existing wet part of the San Joaquin River, 
and how it is going to be of a temperature that won't kill 
salmon, is also a big issue.
    Mr. Radanovich. To the knowledge that you have, is your 
estimate for the rest of the panel about the same? Do you feel 
anybody wanting to----
    Mr. Upton. One thing, Congressman, that NRDC and Friant did 
was do a restoration strategies report where we hired 
independent scientists to actually look at the questions that 
you are talking about and what it would require to restore 
salmon. That report is out there, but it is being suppressed by 
NRDC. And it was paid for by public funds. So some of the 
answers are available, but we cannot legally release the 
report.
    Mr. Radanovich. That is in a report that has been issued 
already but not publicly released?
    Mr. Upton. It has not been publicly released. That is 
correct.
    Mr. Radanovich. OK.
    Mr. Upton. And on the storage for Friant, only 380,000 is 
usable. You have about 130,000 that is dead pool storage.
    Mr. Radanovich. Right, right.
    Mr. Upton. OK.
    Mr. Radanovich. I will come back to you, Mr. Carter, in 
just a second. Let me hear from Mr. Larson, then, if you 
would----
    Mr. Larson. Thank you, Mr. Chairman. First of all, what has 
been talked about is the river is fully appropriated. The 
storage is fully appropriated.
    Mr. Radanovich. Right, right.
    Mr. Larson. And the second part of that, no one has 
mentioned what does it cost to open the channel up, so that the 
salmon can even come up the river? That river has been 
encroached upon. It has been overgrown. I have heard estimates 
of over a billion dollars worth of cleanup just to get the 
river to flow.
    So I think what we are looking at is the opportunity to do 
something for the citizens of the Central Valley, as well as 
Southern California, in a bipartisan issue. And we are trying 
to do something here that is going to be impossible to do as 
the areas continue to grow.
    How are you going to open the river? All of the rivers--all 
of the little towns along the river--Mendota, Firebaugh, 
Gustine, Newman, Patterson--they are growing into the river, 
and they are all threatened by increased flows if the river is 
let run free. It proved itself in 1997 when we flooded half of 
them.
    So those are the things that haven't been talked about. We 
haven't talked about, how does it take to open the river? The 
river is appropriated. Where does the water come from that they 
talk about--this 200,000 acre-feet that they talk about? It is 
appropriated water. You are going to take it away from 
somebody.
    Mr. Radanovich. Thank you, Mr. Larson. I want to try to 
keep myself to the five-minute rule, to make sure that every 
member up here has a chance to talk. We are going to go through 
five minutes for a while, until everybody gets their questions 
asked.
    But, Mr. Carter, you wanted to respond. Do you want to do 
that real briefly, and then I will defer to Ms. Napolitano.
    Mr. Carter. As Kole well knows, you know, you talk about 
the salmon fishery, and then you talk about a trout fishery and 
the different requirements. The Judge may very well say that a 
salmon run is unreasonable, and go with a warm water fishery, 
which Kole and I have talked about. You can send some water 
down the river to keep the trout fishery going.
    Now, remember, when water goes down the river, it is not 
just for fish. These two guys beside me would love to see a 
river flowing through Madera County, because it is--a river is 
a great recharge mechanism for the aquifer. Congressman 
Cardoza--the farmers in his county would love to see water 
coming down the river, because it is recharging the aquifer. It 
provides recreational benefits. And the most serious problem in 
California, in my view, is Delta drinking water quality.
    Mr. Radanovich. Right, OK.
    Mr. Carter. And this water would help.
    Mr. Radanovich. Thank you. And I am going to defer to Ms. 
Napolitano. Again, I am going to try to keep to the five-minute 
rule, but every member I will keep coming back to you, you 
know, even though I broke it starting out.
    [Laughter.]
    But I will try to--that way we can cycle through 
everybody--we will keep going until everybody has got their 
questions answered.
    Ms. Napolitano. Thank you, Mr. Chair. You are entitled; you 
are the Chair.
    A couple of questions come to mind. I don't know--can 
anybody hear me? I need to speak a little louder maybe.
    And I keep hearing, and I have to make a comment--first of 
all, Ms. Garza, I am glad there is another woman on this panel.
    [Laughter.]
    Let me tell you, it is hard sometimes, but thank you for 
being part of it. And as I hear the--I hate to say water wars--
the water disputes and issues, let me tell you, if you guys 
don't come together, we are all going to be in a pickle, 
because I certainly don't want to see the breadbasket of 
California, of the nation, and sometimes the world, struggle.
    And that is something that I really see coming unless we 
really get together and put all pettiness aside. I don't mean 
pettiness in terms of squabbling. I mean, the issue is 
reliable, potable, deliverable water. And I can tell you that 
these, I have seen them in China, I have seen them in--
throughout the world. Same thing with almonds, and my good 
friend just brought me some.
    This is something I am proud of. So we wanted to ensure 
that you have the ability to have that delivery of water for 
your farms. But you also have some problems, because you are 
now doing what--or facing what we in Southern California have 
been facing for decades, and that is the growth of population.
    When you sell off your farms, so that you--you know, you 
have a lot more people coming in, that population explosion is 
going to give you headaches. And I would suggest that not only 
25 years, my friends, 50, 100 years from now. So you need to 
think long range, because that bandaid, given the way you are 
growing, you are going to be facing sooner rather than later.
    And that will include figuring out what your wells are 
contaminated with, how do you get them back into production, 
the contaminations of--whether it is pesticides and other 
things that will contaminate your aquifers. We face that in 
Southern California.
    You need to ensure that you are not going to have that plus 
trying to get water storage and delivery. So as I am listening, 
I just wanted to make that comment, because, let me tell you, 
we face that many, many years in Southern California.
    Mr. Carter, your testimony says that your group believes 
the San Joaquin River is a public trust resource. Could you 
explain that, please, briefly?
    Mr. Carter. Well, the California Constitution and the Water 
Code both say that the rivers of California belong to the 
public.
    Ms. Napolitano. To the people.
    Mr. Carter. Nobody here at the table disputes that. That is 
the answer.
    Ms. Napolitano. I do. You also mention that water marketing 
and profiteering by some water districts--how could that be 
controlled or at least priorities set?
    Mr. Carter. Well, that is a good question. I dug up an old 
Wall Street Journal article from 1996/'97 in which Arvin-Edison 
was attempting to sell some San Joaquin River water to 
Metropolitan water district, and they got fierce opposition 
from most of the folks at this table.
    Agriculture has a fierce internal battle going on, whether 
we should keep the water. In other words, if everybody in this 
room was in agreement that if we build a dam it is going to go 
to farmers, I don't have a problem with that. The question is 
that some folks within the farming community can make a quick 
buck by buying water from--like the so-called 215 water, the 
flood waters coming out of Friant Dam right now, for $27 an 
acre-foot. People can put that water in the ground and turn 
around and sell it to Los Angeles for $500 an acre-foot.
    Ms. Napolitano. Thank you very much.
    [Laughter.]
    Mr. Carter. Well, I know. This is irony. I am usually the 
only skunk at the picnic, Congresswoman, but----
    [Laughter.]
    --since you are from Southern California, you can join me.
    Ms. Napolitano. I am just listening.
    [Laughter.]
    I just had--I was commenting to my friend, Jim Costa, that 
when you are talking about $27, $50 an acre-foot, we are paying 
over $600 in L.A.
    Mr. Carter. Well, I was being conservative, because I would 
get attacked if I went over $500. But $600 is----
    Ms. Napolitano. I would love to have even $100 in----
    Mr. Carter. But Met has made no secret they love the San 
Joaquin River, because it is good, high-grade water. And I know 
folks in the farming community--Ron Pisteresti is out here in 
the audience, Madera Irrigation District Chair. Madera 
Irrigation District, in my view, has taken a courageous stand 
and said, ``We are not going to take farm water and sell it to 
cities.''
    And the Friant unit needs to resolve its own internal 
disputes about how much of that river is going to get marketed 
and where the profits--whose pockets the profits go into.
    Ms. Napolitano. Thank you, Mr. Chair.
    Mr. Radanovich. Thank you, Grace.
    Dennis?
    Mr. Cardoza. Thank you, Mr. Chairman. I am going to try and 
move along here quickly, because unfortunately after this 
series of questions I am going to have to leave for a prior 
commitment.
    I want to start off by thanking Mr. Carter and 
acknowledging your previous comments about being the skunk. I 
don't mean that in a derogatory way. I want to thank you for 
being here. And I believe you are right; my constituents do, in 
fact--would like additional water. They would like more 
recharge. They would love to see the San Joaquin flow.
    But I will tell you that they want to see that not by 
taking water away from other current allocated uses. They want 
to see Temperance Flat filled. And I think that is one of the 
things that needs to come out of this hearing today is that we 
need to provide more additional opportunities to create new 
water and not to continue, as we have done the last several 
years, last several decades, to try and split off already short 
supplies.
    And I think that is the most important thing that we can 
take away from this hearing is how we can move forward to, as I 
said in my opening statement, bring parties together to figure 
out how to build additional storage, to provide additional 
opportunities.
    And one of those opportunities that I have had a personal 
opportunity to view on the ground is Mr. Meyers' operation in 
Madera. And it is really fabulous. I encourage--Grace, did you 
go with me that day? Did you go out to see it? I can't recall. 
Someone--another member went out. I will invite you, and you 
have been very generous with your time. It is a fabulous 
facility.
    And, Marvin, you grow permanent crops. You grow almonds. If 
you couldn't do what you are doing with regard to banking, how 
would that affect your ability to farm and your viability to--
and not just your ability to farm, but also how does it affect 
the financial aspects? Like how can you get loans from your 
bank, and those kinds of things?
    Mr. Meyers. Well, without a supplemental water supply, in 
fact, and a 100 percent water supply, we are always short. We 
get two feet a year. The allocation is 100 percent. We will 
never see 100 percent allocation from CVP. But we are always 
short of water.
    That bank is a bank of last resort. We will be active in 
the water market. We will be out buying water, as much as we 
can afford, during severe droughts. Now, when the drought gets 
into a 25 percent or less water supply, and we can't find any 
other water at any price, then we will go to the bank, and we 
will remove water from the bank. We have a lot of pressure.
    Now, we have been able to show our lenders that we do have 
a supplemental water supply available no matter what happens, 
what Mother Nature does to us. And that gives them the ability 
to finance our operation.
    And we have been approached by a number of people, 
including the Federal Government, to store their water in our 
bank, Level 4 refuge water. We have been approached by urban 
communities on the west side, asking us to bank water for them 
for their new water projects.
    We have taken a position that this bank is an agricultural 
water bank, and I have had to turn away neighbors that have 
water. In a year like this, they wanted to go into the bank. It 
has been tough. But the bank is designed for what it is 
supposed to do, and it is doing it.
    So the answer to your question--short answer--is that we 
are able to function in any kind of a water year. We are able 
to get financed in any kind of a water year, because of our 
bank.
    Mr. Cardoza. Thank you, Marvin. And that goes to my next 
point, really, to the folks from the different communities and 
to Ms. Garza and to Kole. All of you operate either 
municipalities or farming operations that need some kind of 
certainty. And it depends on financing, it depends on, you 
know, the communities. It impacts economic development.
    And so at some point--I don't think I am going to have 
enough time for all of you to answer now, but at some point in 
the hearing I think that is really part of the crux is people 
have to recognize that the certainty of water availability is 
not just for the good years, but it is also what happens in 
lean times and how we deal with it in lean times, and it 
affects the financial viability of communities and whether or 
not you can continue to farm.
    Mr. Meyers. You know, one thing I want to make real clear, 
and I will make it--the people that we employ depend on us year 
in and year out for their welfare. We have 150 people who work 
for us, and all of their families and all of their well-being 
depends on us to be able to function. So that is a very 
important part, you know, the--our participation in the 
community.
    Mr. Cardoza. The Chairman has been very gracious to give me 
a little extra time, since I have to leave, so if anyone else 
wants to answer.
    Mr. Upton. Yes. Congressman Cardoza, I would like to point 
out that, you know, in Chowchilla water district we are now 
working with the City of Chowchilla, who has recognized exactly 
what you said, that certainty is an issue for them. They are 
growing, and so now we have a cooperative arrangement with them 
where they are going to put an assessment basically on each new 
development, each new house, which will then be transferred to 
the water district to bring water in to sustain the aquifer.
    And if I could take time real briefly, Mr. Chairman, to 
reply to Representative Napolitano. I want to correct Mr. 
Carter on the Friant place of use issue, and that is what is 
talked about with Metropolitan. Phil Larson knows this. Friant 
water cannot go out of the Friant service area. That is by 
State law. We just had an issue in Fresno County about that, 
and that is what the issue with the Arvin thing was.
    What we do have is a quality issue, because the 
Metropolitan people in Los Angeles have told us they are not 
interested in quantity, that they have enough with Diamond 
Valley Lake, and everything. What they are interested in is 
quality. So we are--we think we will be able to put some of the 
Delta water, which is of less quality, on our farms and 
exchange it for some of the Friant water.
    And so some of our southern districts are examining that. 
Nothing has been signed yet, but that is what we are trying to 
do--work cooperatively with people. And Metropolitan has 
tried--has said that they would guarantee our supply. They are 
not interested in coming here on a water grab. So we are trying 
to work cooperatively with the people in the south.
    I think where the confusion comes in with the 
environmentalists, Arvin-Edison has a huge state contract. 
Metropolitan--excuse me, Metropolitan has a huge state contract 
for water, legitimately obtained from Northern California. They 
bring it into Arvin-Edison, and they store it. That is part of 
a state contract thing. It has nothing to do with Friant. But 
since Arvin-Edison is also Friant District, we get beat up on 
that issue.
    Mr. Carter. Can I briefly respond? I just wanted to--I 
don't want anybody to think that Temperance Flat is some kind 
of panacea for the problems of the east side. I would point 
out, if the President approved it today, we are 10 to 20 years 
away from any storage at Temperance Flat.
    I would also remind the Committee that during our last long 
drought in the late '80s and the early '90s, the 1,400 dams 
that we have in California pretty much sat empty, or mostly 
empty. Surface storage is highly expensive. We need to have--
Kern County is 25 years ahead of Fresno County on water 
storage, and Madera County.
    We need groundwater banks all up and down this Valley. The 
cheapest, safest, best place to store water is in the ground. 
We can build a dam at Temperance Flat, and we can spend a 
billion dollars. And before the dam is ever built, there will 
be a new shortage. The 200,000 acre-feet from Temperance Flat 
is not going to solve the Valley's problems.
    Mr. Cardoza. You know, Mr. Carter, you may be right about 
10 or 15 years if the President signed it today. But if it is 
going to be built in my children's lifetime, in my children's 
lifetime, not mine, we had better get moving, because what we 
have seen about water storage is people will find excuses to 
put roadblocks time and time and time again. And that is not 
getting us to where we need to be in the State of California.
    Mr. Prosperi. I would like to make a point. I think, you 
know, what Lloyd is talking about as far as the cost of that 
dam is true. But one of the things you have to look at is an 
annual release of 250,000 acre-feet would give the water banks 
that everyone is talking about the chance to work. When you 
have the amount of water that came out in 1997, or is coming 
out this year, it can't be banked. I don't care how many water 
banks you put in.
    If we could store a million acre-feet, we could dribble it 
out over three or four years and store it underneath the 
ground. The two are conjunctive use. But to conjunctive use--
the very word ``conjunctive'' means you have something to 
conjunct. So, you know----
    [Laughter.]
    --if you have Millerton, which is pretty much allocated--in 
fact, it is so allocated that we are sticking all we can in the 
ground, and we have still got 16,000 acre-feet going down the 
river. We need the storage to be able to expand on that 
conjunctive use that everyone is talking about.
    And the other thing I would like to say is if your staffs 
or people have time to take a look at the Upper San Joaquin 
River conceptual restoration plan that we are finishing up, 
which you guys gave us a million dollars--the EPA did. If your 
staffs could look at it, it answers a lot of the questions on 
the recirculation that I think Congressman Cost was talking 
about, how we could recirculate water and have very little loss 
to the farmers, or no loss, and still create a warm water 
fishery.
    Plus, the dam of containment could also store some fish, I 
would hope, and so we are--you know, and the problem with the 
salmon--and this is what Kole was talking about. I want to 
throw this in real quick. The studies that we have seen show 
that you need 16,000 cubic feet per second at least, maybe 20-, 
to go down that river to flush, to move the gravel, and to 
scour the banks.
    Well, I have news for everybody. I farm out there, and that 
river holds 8,000 tops. So now you are talking about--you are 
talking about manmade flooding every other year to scour those 
banks. So it is not a simple solution. Warm water fishery, 
doable. To Mendota, doable. Recirculate water, doable.
    If you look at our study that is coming out, I think it 
will show all that. It will show the constraints to salmon. 
That is really an impossible situation.
    Thank you.
    Mr. Cardoza. Thank you.
    I thank the Chairman for giving me extra time now. I 
appreciate it. And thank you also for having this hearing. It 
was very helpful, George. Appreciate it.
    Mr. Radanovich. Thank you, Dennis.
    Mr. Costa?
    Mr. Costa. Thank you very much, Mr. Chairman.
    What I would like to do is to kind of run down a number of 
questions I would like to ask certain individuals on our panel. 
But I will go through it quickly, so you can think about it, 
and then I will go back to the first one, so that you can be 
succinct and to the point. And if we don't cover it within our 
time, we will submit them as questions to you later on.
    Supervisor Larson, I would like to ask you whether or not 
you think there is a good assessment that has been done in 
terms of our current water use and our future needs. And if 
there hasn't been, what do you think is needed to address those 
assessments?
    Marvin Meyers, I would like to ask you, as you tried to put 
together your project, what were the specific problems that you 
could use to illustrate to others who might like to emulate 
your efforts as to kind of where the land mines are, or what 
not to do?
    Mr. Orth, I would like to ask you, what were the causes 
that required the Kings River Conservation District to put 
together that plan that you described in your comments? I mean, 
what were the underlying causes and the difficulties in 
bringing your own turf battles with the groups that you are 
dealing with?
    Mr. Prosperi, I would like to ask what the cost estimates 
are, do you believe, for the efforts to implement the water 
bank you spoke of, and how you are going to spread that water 
within the area.
    And, Mr. Carter, I would like to ask you what, based upon 
the point that you made as to the watershed of the San Joaquin 
River--and no one can predict. I have--you may feel comfortable 
predicting the Judge's decisions. I try not to.
    But that aside, if reallocation does take place, and I 
suspect his decision will involve some reallocation, therefore, 
then, how would you suggest we develop a regional plan when 
there are some winners and losers, when you have reallocation 
taking place?
    Let us start with Mr. Larson. Supervisor Larson, do you 
have a good assessment on the current water use and the future 
needs?
    Mr. Larson. Right now, Congressman Costa, that question is 
vital to what we are doing right now in Fresno County. We have 
completed a couple of meetings in the Fresno County Water 
Committee, forming kind of a task force I guess you would call 
it that we are bringing all water users within the county, all 
of the water districts, all of those special interest that the 
cities, the small water users, and we are evaluating what their 
water supply is, so that we, in essence, could move it around 
the county, if necessary.
    We have areas of our county that are out of water, and 
there is no water because it is all appropriated. Well, some of 
these districts have water that possibly they could utilize. So 
how do we know how to distribute water unless we know what we 
have? And that is what we are trying to do right now.
    Mr. Costa. How are you doing the assessment? Who is doing 
it for you? And how much of it--I mean, because I think that 
effort, along with other assessments, are going on with our 
efforts to put, as Congressman Radanovich and Congressmen 
Cardoza, Nunes, and I, try to put together this regional plan, 
to the degree work is taking place already out there, that is 
helpful, because that information--we don't have to reinvent 
the wheel is my point.
    Mr. Larson. Well, how are we doing it? We are asking each 
district what their total capacity is or their usage is for the 
year, how much they use, and what they are doing with that 
water. At the present time, we have, under the direction of Mr. 
Orth, have formed an MOU that we brought forth last Thursday at 
our meeting, and this now is being distributed back to the 
districts to fine tune. And within 90 days----
    Mr. Costa. You are including the City of Fresno?
    Mr. Larson. The City of Fresno is involved.
    Mr. Costa. OK.
    Mr. Larson. They have been at our meetings. Yes, 
absolutely, they are very--you know, they are 1 of 15 cities in 
Fresno County, but they happen to be the biggest. And so they 
have to be at the table.
    We are talking about everyone, small cities as well as all 
irrigation districts within the county, and that is what we are 
doing right now. The MOU is out--back to these folks to look 
at. Within 90 days, we will bring it back, and we hope by the 
end of the year we will have fine-tuned what the need is and 
what the supply is.
    Mr. Costa. Do you happen to know, and if you don't--how 
many of the other counties here in the Valley are doing 
somewhat similar?
    Mr. Larson. Under your direction, Congressman, we have 
called every county. We have had a response from one county and 
one news media in Stanislaus County. That is the response we 
have had at this time.
    Mr. Costa. OK. We need to work on that.
    Mr. Meyers, what were the problems in trying to put 
together your effort? I know you shared with me many of the 
problems. But if you could go down a brief list----
    Mr. Meyers. How long do we have?
    [Laughter.]
    Mr. Costa. We don't have that long. Seventeen seconds.
    [Laughter.]
    Mr. Meyers. All right. I will make it quick. Probably the 
toughest stuff was trying to work with the State government----
    [Laughter.]
    --trying to get funding, you know, realizing that it is a--
you beat your head against the wall trying to do it. The rules 
and regs and things for a private individual farm to get funded 
for something like this was very difficult. The feasibility 
work I would definitely hire--be very careful who you hire to 
consult with you on the work you do for your geology and 
hydrology.
    One thing you have to be very motivated and--I will make it 
real quick, Mr. Radanovich. I think the bottom line is that you 
have to be dedicated, and you had better have some good 
funding. The toughest part was all--was some of the mistakes I 
made and erroneous hydrology, erroneous filtration stuff.
    And I just--by the time I got really going, I had spent a 
lot of money and made a lot of mistakes. However, it was a 
learning experience, and thank God I was able to make--have the 
money to spend. But that was my biggest problem.
    Mr. Costa. Current almond prices make it a little more 
bearable.
    Mr. Meyers. I beg your pardon?
    Mr. Costa. I said current almond prices make it a little 
more bearable.
    Mr. Meyers. Well, man, you better believe it.
    [Laughter.]
    If it wasn't for the price of almonds, I might not be able 
to finish it.
    Mr. Costa. I am out of time, Mr. Chairman, but I would like 
to--if we could get another chance to round----
    Mr. Radanovich. Oh, absolutely.
    Mr. Costa.--I will go back to those other three witnesses.
    Mr. Radanovich. Jim, we will cycle through on five minutes 
until every question is answered.
    Mr. Prosperi, I have a question regarding a project that 
MID--Madera Irrigation District--has, now called Madera Ranch. 
A few years ago this issue came up when Enron and Asuracks had 
bought--or had plans to have an underground water storage 
facility, and it was highly contentious and highly opposed 
locally.
    Now, your irrigation--or Madera Irrigation District has the 
opportunity to purchase that property with the idea of using it 
as a water bank. Why is that now something positive? Can you 
give me an idea of what you think might be the increased water 
capacity supplied from a water ground storage like that, 
project like that? And are there many underground storage 
projects like that in the area of, say, the San Joaquin 
watershed?
    Mr. Prosperi. Yes. The big difference--there was a huge 
difference, and there was a lot of opposition. In fact, I was 
deeply involved in that opposition. There was a huge difference 
between that project and the one that the Madera Irrigation 
District is now proposing. The main difference is that we have 
a locally controlled and operated project as compared to Enron, 
which I don't think exists any longer. So mitigating their 
losses would have been very difficult for them.
    But anyway, the other issue--besides local control, the 
project size has shrunk from 5- to 600,000 acre-feet down to 
250,000 acre-feet. One of the concerns of landowners was the 
size of the project and where that--and how it affected 
landowners in the vicinity. Without going into a lot of 
technical detail up here, the bottom line--a smaller project 
was always more favorable to the local people to make sure the 
water could stand about 13- or 14,000 acres of land.
    Mr. Radanovich. So on your smaller scale, though, how much 
water in acre-feet would that yield as new supply?
    Mr. Prosperi. Well, the 250,000 is the total storage 
capacity. The annual potential yield is 55,000 compared to 
100,000.
    Mr. Radanovich. So that would be about 55,000 acre-feet of 
new water supply.
    Mr. Prosperi. Of new water, yes, potentially could 
generate. The other issue was that MID reached out to the local 
landowners and to the water districts, and some general 
principles were put in place that we could never get Enron to 
agree to.
    Number one, besides local control, with maintaining the 
10,000 acres of that ranch in habitat--to be maintained in 
habitat and not be developed, if you develop 10,000 acres of 
water using--land using groundwater, and you basically pump 
35,000 acre-feet a year of new water to farm, then you are 
really not gaining nothing.
    The other big issue was not tying it to the Mendota Pool, 
and some of the water quality issues that go along with the 
TMDLs. We wanted strictly Eastern Madera County water, which is 
clean, pristine water, so we didn't pollute or dilute our 
aquifer. That is something MID has also agreed to, and, in 
fact, agreed to that as one of their--that is their governing 
principle--and no exportation of groundwater.
    The big issue for Madera, because of our huge overdraft in 
our area, Madera and Chowchilla area, we felt that any of this 
55,000 acre-foot of additional water needed to be used in 
Madera first to do two things. They are proposing to leave 10 
percent behind, which is similar to what Mr. Marvin was talking 
about, to slowly buildup our aquifer.
    And, two, to use the water primarily for MID's taxpayers 
and water users first; second, our subordinates, who are 
members of MID but on a subordinate basis for getting water to 
help their problem out in Eastern Madera, out in the Highway 41 
corridor; and the third is for Oakhurst, Coarsegold, North 
Fork, Ranchos--these areas that have severe problems, 
especially the Oakhurst area as most people know. They are 
looking at at least a 2,500 acre-foot of surface water now they 
need on the way to 10,000 acre-feet. So we are looking----
    Mr. Radanovich. Can you----
    Mr. Prosperi. The quick answer, huh?
    Mr. Radanovich. That is good. I just want to clarify 
though, too. How many underground water storage projects are 
available like this one in the area?
    Mr. Prosperi. In Madera County, there is--at this juncture, 
there is none like this available. Water districts like 
Chowchilla and Madera are constantly doing percolation in the 
ponds in small projects, but nothing of this magnitude.
    Mr. Radanovich. In your opinion, although underground water 
storage facilities like this can contribute to what might be--
put us in short supply, given the nature of this lawsuit and 
the possible outcome, in your opinion, can underground water 
storage meet the full demand of environmental restoration plus 
the ag and urban water needs?
    Mr. Prosperi. No.
    Mr. Radanovich. Mr. Larson, Phil, it was mentioned earlier 
that the water on the San Joaquin River is fully allocated, as 
you had mentioned. And if 100,000 acre-feet to 300,000 acre-
feet were mandated by the Judge's decision to rewet the river, 
tell me where that water would come from.
    Mr. Larson. That water would probably come from agriculture 
in western Fresno County, like out in the Kerman, Biola, 
Rolinda area. That is where that water would come from, as far 
as because what would happen is they would take water out of 
Friant, or out of the Millerton Lake, and then the Fresno 
Irrigation District would be obligated to fulfill that water 
that would go to the City of Fresno, because they are within 
the district.
    And so then the Kings River water has to back up what is 
going to be taken from the Central Valley Project, and, 
therefore, those of us that farm out in that Kerman area, we 
are going to lose the water. That is basically what will 
happen.
    Mr. Radanovich. Last question before I defer to Ms. 
Napolitano. It was mentioned that a new dam would take 10, 15 
years. And you are right; I mean, they take forever, and there 
will be lawsuits trying to stop it, which would further delay 
it. In anybody's opinion, am I correct in saying that if we 
didn't have this lawsuit in the first place that we could 
probably be OK 10 to 15 years from now with new water storage?
    Mr. Larson. Well, I would answer your question this way, 
Congressman. The fact is, if it is 10, 15, or 20 years, it is 
going to be 10 or 15 or 20 years. The longer we wait, then it 
is 25 or 30 years. We need to get going now.
    Mr. Radanovich. Right.
    Mr. Larson. 1,700,000 acre-feet flow out of the watershed 
that comes into the San Joaquin River can be handled through a 
new dam at Temperance Flat. We can store that water. We can 
allocate water at that time with that storage. Now, they say it 
is only 200,000 acre-feet. I question that very seriously.
    But right now we could allocate that water down the river. 
There would be water for the fish, there would be water for the 
cities, there would be water for agriculture, if we had that 
dam at Temperance Flat to capture the type of flow we have had 
this year.
    Mr. Radanovich. Thank you, Mr. Larson. I will defer to Ms. 
Napolitano. Thanks.
    Ms. Napolitano. Thank you, Mr. Chair.
    I wish I would have had more testimony to read prior to 
being here. I only read two of them that were made available, 
because I have a lot of questions. That is my nature.
    I certainly want to ask Ms. Garza, because she is the only 
one that represents the actual farm workers, what is the labor 
issue? Where do you see water playing--and I have read your 
testimony--playing a part in the development? And, of course, 
that goes along with the ability to pay the workers to keep 
them in our area. And I realize this is not the time or the 
place, but how immigration is going to play a role whether we 
get more seasonal workers from south of the border.
    Ms. Garza. Well, first of all, I am not sure if I am going 
to answer exactly what you want to hear. But the way I see it, 
no water means no growth, and no growth means no jobs for us. 
And in my area where I live, in Delano, California, I have seen 
the town grow by farm families. And so I just don't see another 
way to keep going, and, of course, if we are looking at water 
being more expensive for farmers, then it is harder for farmers 
to keep going and to pay our wages.
    Ms. Napolitano. Thank you. I was looking at your report, 
the inclusive--included material, where the agriculture 
production has grown in 1984 from $4.5 billion to in 2004 of 
$12.6 billion, and that is quite an increase. And there is 
still a lot of potential given what is happening.
    Thank you, ma'am.
    I have a----
    Ms. Garza. Thank you.
    Ms. Napolitano.--question for Supervisor Larson, and I 
think I just touched upon the urbanization issue. Does Fresno 
County has a program to preserve ag land and protect it from 
development? Because I remember in my days in the state 
legislature Valerie Brown from Napa tried to introduce 
legislation to curb the sale of farmland.
    Mr. Larson. We have--at the present time, we have the 
Williamson Act, which puts land in production. We have the 
Williamson Act and the Super Williamson. If you are in the 
Williamson Act, your land is continuously protected 10 years on 
an evergreen contract. The Super Williamson is 20 years.
    We have in Fresno County a sphere of influence around our 
cities, not just the City of Fresno but all the cities, and the 
Fresno County Board of Supervisors has a policy that we are 
directing growth to the cities or the communities that have 
infrastructure instead of just going out and building out in 
the open areas.
    Now, if you own a farm, that doesn't stop you from building 
your home on your farm. But any major development we are trying 
to keep within the sphere of influence of the cities within the 
county.
    Ms. Napolitano. I hope you won't face the same attitude 
that I faced from one of my former colleagues when I was in the 
State Assembly is, ``Southern California, stop your growth.''
    Mr. Larson. Say that again. I am sorry.
    Ms. Napolitano. We were told 10 years ago when I was in the 
State House that we in Southern California needed to stop 
growth in Southern California.
    Mr. Larson. Well----
    Ms. Napolitano. And I am being very truthful, because there 
is no way that cities can stop there. There is just, 
unfortunately----
    Mr. Larson. How do you stop people from coming in, 
Congresswoman? I mean, you just can't stop them and they are 
coming. And my--our theory in Fresno County is: how do we plan 
it? And how do we have it planned in a proper way, so that we 
can control growth as it expands into our rural areas?
    But that doesn't mean we want to stop it. We have to 
control it, and we have to plan for it.
    Ms. Napolitano. Which is more the reason to project more 
than 25 years.
    Mr. Larson. Yes.
    Ms. Napolitano. And to Mr. Prosperi, I read with great 
interest in your remarks on the FEMA issue regarding the flood 
insurance rate on the maps. We face that in our area, so would 
you mind letting us know where you are at with that?
    Mr. Prosperi. Yes. What happened with the FEMA issue, after 
the 1997 flood, you know, FEMA came in with the Army Corps and 
did a study and basically tried to say that--and we didn't 
agree with it--that the flood plain was 300 to 400 percent 
larger than all of the studies they had done since the 1950s on 
the hundred-year event.
    We, in turn, hired our own hydrologist and did a lot of 
studies, and we came to a completely different conclusion. And 
we are still in that process. In fact, we just got word today 
our latest with Mr. Countryman, who is highly regarded in the 
Army, who used to be one of the higher-ups in the Army Corps, 
is working for us on evaluating it.
    And we are coming up with numbers probably close to 50 
percent of what they came up with. One of the reasons we feel 
that their numbers were wrong is because of how they evaluated 
the 1997 flood. And what really happened as compared to the 
operating rules of the dam is kind of a technical thing, but we 
want the right number. We are not trying to artificially keep 
it low. We don't want to see housing encroach on the river.
    But we also don't--when you go downstream where we took you 
that time and that river opened, the flood plain numbers they 
are looking at is like 10 miles wide on both sides. Poor Marvin 
there is going to be in the flood plain, but--his water bank. 
But the issue is property rights, and we just want the right 
number based on actual science, based on true mathematics, and 
based on operating rules of the dam. And that is where--we are 
still in that process.
    FEMA and the Army Corps so far have still been--they just 
turned down our latest appeal, but we are preparing another 
LOMAR as we speak. And I think Madera County will be--and 
Fresno will be going forward with that. All I can do is say at 
this point it is not settled.
    Ms. Napolitano. A word of caution, sir, and that is that 
when FEMA went in and made statements to our residents--and in 
California, as you well know, we are divided by streets, 
cities--that there would be flood insurance available, but they 
only gave us 30 days, and they didn't make it widely known.
    So we were very upset and were able to get them to extend 
it, not only that, but they had excluded a lot of people simply 
because they didn't know about it, and when they went it was 
too late. Had we not had the raising--the FEMA levy-raising in 
this last flood, we would have had tremendous losses.
    So it is vitally important. We may not expect it today or 
tomorrow, but it could happen, and it has happened in our area. 
And so I caution you, because sometimes they think they do the 
outreach, and they don't.
    Mr. Prosperi. Right.
    Ms. Napolitano. OK? Thank you.
    I will wait for the next round. Thanks.
    Mr. Radanovich. Thank you, Ms. Napolitano.
    Jim?
    Mr. Costa. Thank you very much, Mr. Chairman. I will get 
back to my questions.
    Mr. Orth, you were next. What caused the Kings River 
Conservation District to put this plan together? And what have 
been some of the turf issues that you have had to get through?
    Mr. Costa. Yes. Just real quick, the water forum or the 
Upper Kings Water Forum was created through cooperative efforts 
of the Kings River Conservation District and three irrigation 
districts within our service area--the Consolidated, Alta, and 
Fresno Irrigation Districts.
    And what really brought us together was kind of two--on two 
fronts. One was a growing tension between those agencies and 
the communities that they surround, and it is a 350,000-acre 
service area that surrounds Fresno, Clovis, Reedley, Dinuba, 
Parlier, and some of Kings Brook-Fallor, so it is a rapidly 
growing region. We saw groundwater issues. We saw water quality 
issues. And we felt that there needed to be better coordination 
between the districts and those cities.
    We also recognized, based on our experience and successes 
with the fishery program, that some type of collaborative 
effort had some upside, and so we reached out and worked with 
those communities to develop this concept, and twofold was 
additional data so that we can make better planning decisions.
    And, quite frankly, and maybe the best incentive is that 
the state conditioned future state grant awards on a 
requirement that you be regionally coordinated in your water 
resource planning. So, you know, the money talks. If you are 
going to get state money, you have to be regionally 
cooperative.
    Five problem areas that I thought of--one is identifying 
your vision and getting--number 1. And, number 2, then 
educating and getting the stakeholders aware of what the issues 
are. Number 3 is trust, and, quite frankly, the state has been 
very helpful to us in supplying a professional mediator to help 
us communicate pretty regularly in very large forums of 
stakeholders as to what the trust issues are, establish a 
voice, and then maybe the biggest challenge here is the local 
cost-share allocation.
    Some of the smaller communities are stressed for money, and 
that has been in issue in generating local cost-share and local 
match against those broader program needs that we have.
    Mr. Costa. Thank you.
    Mr. Prosperi, what is the estimated cost of the groundwater 
bank that you have spoken of? And how will you try to share 
that 55,000 acre-feet of net yield that you spoke of a moment 
ago?
    Mr. Prosperi. I will give you what I know. The real 
technical guy is sitting back there--Ron, who is Chairman of 
the Board of MID, and he can probably fill you in in a little 
bit more detail. But what I do know is that we--is that the 
district has an option for $37 million for the land for 13-, 
almost 14,000 acres, and about $30- to $35 million in the 
preliminary stages for what it is going to cost to develop. 
That hasn't been dialed in yet, because they are still in the 
formation.
    The first--the second part of that question is, how is the 
55,000 acre-foot going to be distributed? The primary--first of 
all, the financial risk is going to be the taxpayers of MID, 
which are the city--two-thirds of the City of Madera and the 
farmers in the district. So the first benefits will go toward 
helping the taxpayers and the rate users and the water users 
within the district to--with their water shortages.
    The facility that is being designed is unlike the previous 
one that Enron had in effect. It is a pump-back facility. I 
mean, the water will--the properties on the westerly boundary 
of MID, and so the water will go in, the 250,000 acre-feet.
    When it is called on, we will pump it back into the 
district, which will also help our recharge, to be used by the 
farmers within a two- to three- or four-mile radius around, 
which will free up their water or water they normally get 
through the channels, through the MID system out of Friant, 
which then ultimately frees up water to go to Oakhurst or 
Coarsegold or whatever.
    The benefits for the usage, we would hope that areas like 
North Fork and Coarsegold and Oakhurst, who are right now 
running about 2,500 acre-feet short a year of water, and are 
looking at a Redinger project of bringing surface water in, 
would be able to take water out of Redinger or somewhere and 
then do some swaps and be able to store the water in the water 
bank.
    Ultimately, the water users in Ranchos and these areas 
would go to MID and buy a portion of the space. That would give 
them allocations--percentage of the allocation of the 55,000 
acre-feet.
    Mr. Costa. So to help finance it, you are possibly 
considering a JPA, joint powers agreement, with the city and 
some of the other entities?
    Mr. Prosperi. Yes, that I couldn't answer without talking 
to MID, but----
    Mr. Costa. That is all right.
    Mr. Prosperi.--I don't think so.
    Mr. Costa. Thank you. I will have to--I think--I don't know 
if we have time for Mr. Carter to answer the last question.
    Mr. Radanovich. Is that the last question?
    Mr. Costa. Yes, this is the last question I had.
    None of us can predict what the Judge is going to do, to 
remind you of the question, but in the event that some of the 
water is reallocated, there will be winners and losers. How do 
you suggest we develop a regional plan, realizing there are a 
host of separate watersheds here, and we are one region, one 
valley?
    Mr. Carter. I just want to briefly comment on what Denis is 
saying, which is about groundwater banking. Now he is talking 
about generating 55,000 acre-feet of water. And if you do the 
numbers for his versus Temperance Flat, which is four times 
larger, you find out that the dam is way, way, way more 
expensive than groundwater. He is my best salesman for 
groundwater storage.
    [Laughter.]
    And we don't need just a groundwater bank in Madera County. 
You know, back in the 1930s when the Bureau was deciding to 
build Friant Dam, of course they made a catastrophic mistake 
because they built it too small and in the wrong place. We all 
know it should have been at Temperance Flat. They knew that 
during the lawsuit back in the early '50s.
    But the Bureau of Engineers were talking about, did they 
need to build a dam? And there was an extensive discussion in 
the Bureau to put--to have every water district along the east 
side take 10 percent of their land and use it for groundwater 
banks. The Friant-Kern Canal is lined. It could be recharging 
for that 150 miles of canal if it wasn't lined with cement. So 
I think that groundwater banking is the way to go.
    Now, to get to Jim's question of what happens if the Judge 
rules next year--well, first of all, I don't think anything 
will happen, because it will be another five- to eight-year 
Ninth Circuit opinion.
    Mr. Costa. Of lawsuits.
    Mr. Carter. But what the reallocation question is, first of 
all, is 80 percent of the San Joaquin Valley agriculture will 
go on just like they have always done, because they are not 
affected. So we are only talking about a small portion of the 
Valley here, and we are talking 15, 20 percent within the 
Friant unit.
    I do not think the sky will fall. I think that the Friant 
boys are going to fight it amongst themselves as to who has to 
give up that water to restore the river. And if you ask my 
legal opinion, Fresno County and Madera County are counties of 
origin, and they can say to Larry in Kern County, ``We don't 
have to give up this water. You guys take 75 percent of the 
river now.'' So you may see some local lawsuits erupting.
    [Laughter.]
    That is what I predict.
    I want to close with a very brief discussion of the raisin 
industry. As we all know--Congresswoman Napolitano was eating 
raisins--the last few years have been really tough for the 
270,000-acre raisin industry. The solution for those folks 
would not have been to plant more vineyards, use more water, 
and grow more raisins. That would have driven the price even 
lower.
    What the raisin industry did was they took 100,000 acres of 
raisins out of production, finally brought the price back up. 
In my view, the fundamental problem of farmers in this Valley 
is low prices. We need to get our farmers a fair share.
    You know, for a $3 box of Wheaties, Tiger Woods gets 10 
cents for his picture on the cover, and the farmer gets two 
cents for the wheat in the box.
    [Laughter.]
    So if we want to--let us start devising farm policies that 
will get our farmers a decent price. I really think that the 
Judge will rule, some water is go in the river, and life will 
go on. Agriculture in the San Joaquin Valley is the most 
inventive, hardworking, ingenious farmers in the world. They 
will overcome a 15, 20 percent reduction in San Joaquin River 
supplies. Life will go on.
    Thank you.
    Mr. Costa. Mr. Carter, I have known you for a long time, 
and I am not sure you quite answered the question.
    [Laughter.]
    I have known you as a reporter.
    Mr. Carter. What was the question?
    Mr. Costa. I have known you as an attorney and an activist. 
But I am not so sure that you may want to someday run as a 
politician, because you are waxing pretty good here.
    [Laughter.]
    Mr. Radanovich. All done? All right. Thank you, Jim.
    One more quick--a couple of questions before we wrap up. 
Mr. Prosperi, what needs to be--what is left to be done in 
order to make sure that the Madera water bank happens? Briefly.
    Mr. Prosperi. Briefly, well, number one, they formed a 
commission which brought in the Chairman of the Gradley Ford 
Water District, along with two landowners, which is Rick 
Cousins and myself, which our rules say you have to live within 
two miles of the project. Kole Upton is also an at-large member 
of a commission who is working on an MOU to make sure that we 
protect landowners in districts around the project. That has to 
be done. They have to exercise their option. They have to get 
their funding in place.
    The actual project, because it is so intricately plumbed 
in, it almost could immediately start functioning, but they 
will need some money. Hopefully, there will be some grants, 
hopefully there is some habitat monies. I mean, they just 
needed--they just have to get all of the pieces put together. 
It could be up and functioning by next year if all of the 
pieces come together.
    Mr. Radanovich. Thank you. I would like to ask the panel if 
any studies have been done that would substantiate the cost to 
the economy if 100,000 to 300,000 acre-feet of water were taken 
out of agriculture? Are the numbers out there?
    Mr. Upton. Yes, we have done the numbers. I think the more 
important number is the number in the restoration strategies 
that not only talks about the water but the improvements that 
would have to be made to the river in order for salmon to come 
up. And that is between $600 million and $1 billion.
    Mr. Radanovich. Cost to the economy for the loss of water, 
though. That is the question that I am asking. I mean, again, 
nobody can be certain as to how much water would be required to 
fill the needs of this court decision. But given if it was 1- 
to 300,000 acre-feet, is there a study that has been done that 
would estimate the economic impact to that loss of water?
    Mr. Upton. We are in the process of getting that 
information now.
    Mr. Radanovich. OK.
    Mr. Upton. It depends on how many acres and, you know, 
which crops and that kind of thing.
    Mr. Radanovich. I think the use of those dollars would be 
really, really helpful.
    Mr. Upton. Yes.
    Mr. Radanovich. Well, thank you very much for your 
testimony, ladies and gentlemen. I really do appreciate it. I 
have one more question.
    Grace?
    Ms. Napolitano. Well, I could go on. I have a couple.
    Mr. Radanovich. Well, go. No, you take your time.
    Ms. Napolitano. OK. Well, thank you. A couple of things 
come to mind. And, Mayor Murray, congratulations on your 
leadership. I have read with great interest what you have done 
in the community and how you have managed to be able to address 
a lot of the issues that are so pressing at the local level.
    You did mention you had drilled six test wells, but they 
were of no use. Would you mind elaborating why and at what 
cost?
    Mr. Murray. Well, the costs--I apologize. I don't remember 
the cost offhand. The reason why, the east side of the San 
Joaquin Valley, the Lindsay area, is nestled right adjacent to 
the foothills. We have a lot of rock. We have no real aquifer 
like the sand aquifers a lot of areas have. We have a lot of 
rock in the area.
    A lot of the wells are drilled. When we drill them, they 
produce 100, 150 gallons a minute. Not enough to support a 
city, not economically. I know several farmers in the area that 
have drilled wells over the years to be of no use because 
mainly not enough water quality. The expense is there to drill 
but not the quantity.
    Also, addressing the quality issue, we have had wells that 
have had pesticides in them. We have had wells that have had 
some DBCP. We have had wells that have had nitrates. Those 
issues.
    And, consequently, when you are using those wells--the 
water is perfectly safe to drink for a lot of people. But, 
unfortunately, when you are giving it--delivering it to the 
city, some different requirements are involved, as you are well 
aware of, and we are unable then to deliver that water to the 
city residents.
    But there has been six the last two or three years. I am 
not sure of the cost. I apologize. But there has--mainly it is 
the quantity and the quality issue. Not enough water.
    Ms. Napolitano. That makes real sense in terms of the 
contamination issue, because then--we face that in Southern 
California, tremendous issue. But if there were a way to be 
able to have the communities that have wells be able to assess 
or get help--and that should be part of the study of the water, 
including in whatever the group comes up with, to be able to 
determine, in the cities that have wells, what will it take to 
clean them up? Because there is a great expense in drilling 
those.
    Whether or not there is ability to connect so they can make 
the water potable, or at least deliverable, or cleaning up, or 
I am not sure how. But to me, if those wells were able to be 
put back into production, that would help relieve some of the 
shortage of water in certain times of the year, I would assume.
    To me, storage is very, very key, because we tried in one 
of my cities to develop a half-above/half-below ground storage 
to purchase water in winter when it is cheap. As you all know, 
it is over $600 an acre-foot. So it made sense.
    The problem was, at the time we had an issue with the 
economy, and things didn't quite there. But now we are looking 
at it again, because every city now should begin to look at how 
they may be part of the solution, to be able to deal--even if 
it is a small quantity of water, it is better than none, if 
there is such an opportunity to be able to do that. And so I 
am--that is why I am directing the questions to that issue.
    Mr. Murray. One thing, in the City of Lindsay we have water 
meters, where a lot of cities and communities do not have water 
meters. So, consequently, we are regulated that direction, and 
that is important I think. My personal opinion is when you have 
water meters, you regulate your water, people will be more apt 
to conserve water when you realize how much you are spending 
for it.
    It is quite expensive in our city for the water that we do 
have. The average resident pays about $40 per month on their 
water that they use, and the wells that we have had in the 
past, unfortunately most of them lie on private ground and 
around the city itself it is hard to get a well within the 
area.
    If we can go outside the area and get private ground, we 
can get more wells, but it is also quite a distance in to get a 
proper well for producing the quality of water we need and the 
quantity.
    Ms. Napolitano. Well, it is great to hear, because when I 
lived in Sacramento, the six years I was there, I never paid 
water. And the water meters weren't connected to the 
residences, and I think that is a shame because when you go 
into conservation anywhere else in the State of California, I 
think it is only incumbent people to conserve if they are not 
going to have a water meter.
    There is another question I would have, and that was to Mr. 
Meyers. I was very interested, sir, in the development of your 
own systems and would love to be able to get an opportunity to 
either further discuss it or maybe visit, because that is 
something that we need to see how we can replicate and learn 
from and not reinvent the wheel.
    Mr. Meyers. I got a little bit of the echo when I was 
trying to hear the context of your question.
    Ms. Napolitano. I am sorry. I am probably too close to the 
mike. I was saying that I would love to learn from your work 
how you have managed to achieve, and that from learning from 
you we do not have to reinvent the wheel to replicate in other 
areas of great need.
    Mr. Meyers. Yes. Yes, this is why I always bring the Bureau 
of Reclamation into my discussions. The Bureau is using this 
project, or will be using this project, as a precedent project. 
And it is a very, very wonderful project. My passion for this 
project is high, because I spent of years, since 1998, putting 
this together, and it is a result of the previous drought.
    We would never be able to survive without it, and, yes, it 
could be an outline to anyone who would want to do a project 
such as this how to do it. It is a class of how to do it, and 
what mistakes not to make. But it is successful. You need to 
know how to do it. And the Bureau of Reclamation, I have urged 
them and they are going to take this project and use it as an 
example throughout the Western United States how to do a 
groundwater banking project. And it can be done.
    And the key to these groundwater banking projects, they 
don't have to be massive. There could be a lot of little 
groundwater projects all over the Valley and all over the area, 
as long as you have a conveyance facility to get the water 
there and to take it out of the aquifer.
    So the answer to your question is yes, it will be a model 
for a lot of folks who would like to try it.
    Ms. Napolitano. Well, I look forward to reading further 
about it, and maybe even visiting. And to all of you, what 
happens in California has been a groundbreaker for the rest of 
the nation. They do view us as the leaders, and they can learn 
from us.
    However, when it comes to funding, that is a different 
story, because they feel that California is so wealthy that you 
do not need the help. So it does take a lot of cajoling, 
convincing, and otherwise threatening some of our colleagues, 
because we have 53 votes in California. We need to learn to use 
them together, to be able to address some of those issues.
    And that is one of the reasons why I think it is so 
important that you begin to form the coalition for all parties 
concerned, so that we can be effective.
    And the last question I have is I am concerned about the 
NRDC not releasing that. I would like to have further 
information on that, so that we can, Mr. Chair----
    Mr. Radanovich. Certainly.
    Ms. Napolitano.--request it, so that we have something to 
go by.
    Thank you, Mr. Chair. That ends my questioning.
    Mr. Radanovich. OK. thank you.
    Mr. Costa?
    Mr. Costa. Yes, very quickly. Is that Mr. Harry Armstrong 
out there? Mayor of Clovis? Just want to acknowledge, another 
elected official here who has been working with Fresno 
Irrigation District to do a very innovative groundwater project 
that involves public-public partnership. I think I made 
reference to that earlier.
    Mr. Chairman, I just want to thank you for your leadership, 
your staff, all the staff that worked so hard to put together 
this hearing today. And our witnesses I think did an excellent 
job in terms of making the time available and giving us their 
best thoughts in terms of how we can come together to solve the 
various water challenges that we face in this region today, 
tomorrow, and in the next 25 plus years.
    And maybe the person that made the comment earlier that we 
ought to be thinking further than 25 years is accurate, but 25 
years is pretty tough to look down the road in the future, so 
let us try that for now.
    And I look forward to working with all of you as we 
endeavor to solve, from a common sense standpoint, what 
Assembly Member Eramula and his colleagues on the state level, 
both in the Assembly and in the Senate, working together to 
really make a difference for the people who live in this Valley 
and the people who live in California.
    Congresswoman Napolitano said it correctly. We are the 
breadbasket of the world, and we would like to remain so. So 
our task is clear, and we need to work together.
    Thank you.
    Mr. Radanovich. Thank you very much, Jim.
    I also want to recognize Shelly Abajian from Senator 
Feinstein's office, who is in the audience as well.
    In closing, I am reminded on a different subject that was 
on a radio program, a call-in to Los Angeles--was regarding 
illegal immigration and tried to--you know, under the 
misconception that I could talk rationally with this radical 
radio station down in Los Angeles about the need for a desk 
worker, Bill, in Immigration, and such.
    And we had a caller in that said, ``By gosh, I am so 
concerned about this problem that I am willing to pay five 
bucks for a head of lettuce, just to make sure that there is 
labor out there to pick those things.'' And, you know, I said, 
``Fine. Why don't you get 30 million other people and, you 
know''----
    [Laughter.]
    --``cut yourself a deal.'' They wanted to pay that much. 
The fact of the matter is that the American public wants cheap 
food, and the best way that we can produce cheap food is to 
have an inexpensive and reliable water supply. And if things 
continue this way with the increased pressure, from 
environmentalists but from other areas as well, on agriculture 
we are going to end up having food as a strategic necessity, 
just as--and allow ourselves to be shorted internationally, 
just the way we are in energy.
    And I don't want to see it come to that, but it is--but we 
have to agree that the San Joaquin Valley ag economy, which is 
the backbone of the State's economy, has an inexpensive and 
reliable water supply. And that can only be met--and I applaud 
these projects like Madera Ranch. I think that it is a 
wonderful project, but it is not the only thing that has to 
happen in order to guarantee that.
    In CALFED that was passed recently, environmentalists, 
urban and ag water users, worked together to pass a bill with 
unanimous consent in Washington. And I don't think that has 
ever happened before, not on water, because, as Jim mentioned 
the Mark Twain comment, it is so controversial. It ended up 
passing unanimously. In that were four water storage projects, 
all above Delta, all in Northern California, but still 
unanimous consent on those.
    We were not far enough along to include south of the Delta, 
San Joaquin water storage project, but now is the time. 
Increased above-ground storage would be a wonderful supplement 
to any addition that we can get from groundwater storage.
    I think that a perfect compromise is that we are not using 
in-stream--in Temperance Flat proposing in-stream water 
storage. We are going offstream, and that ought to be a great 
compromise point between ag and urban and water.
    Again, I want to thank the panel for being here. You 
provided a tremendous resource. I think you moved the dialog 
forward on this issue. I know a number of great comments were 
made, too, at the rally out in front, and I would ask unanimous 
consent that speeches from the rally be included in the record. 
And hearing no objection, so ordered.
    Mr. Radanovich. And I also would like to make everybody 
aware that the hearing record will be kept open for 10 business 
days. If you would like to submit comments, those would be 
written comments. We will keep the hearing time open for you to 
be able to do that.
    This does end the hearing. I have noticed that there are 
some wonderful ag products that are being brought here to the 
Committee to stress the importance of ag and agriculture 
produce to the economy of the Valley. Those are yours to take 
home. So treat yourselves to any of the items that are here.
    And, again, I also want to express my sincere thanks to 
Fresno State for providing us this hearing room. It is just 
terrific.
    And, last, I want to thank you for being an incredible 
audience. A lot of times you spend a lot of time reminding 
people that there is not an applause meter on these meetings. 
This is not a rally. This is a public hearing, where the input 
is valuable and taken into the record. And I really appreciate 
the crowd here today being polite and listening, and I think we 
did the cause good.
    So, again, thank you very much. And with that, I am going 
to thank my colleagues as well for being here, and announce 
this meeting as having been adjourned.
    Thank you very much.
    [Applause.]
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
